   AUDIT OF STATUTORY 

SUSPENSION AND DEBARMENT 

  ACTIVITIES WITHIN THE 

  DEPARTMENT OF JUSTICE 


        U.S. Department of Justice 

      Office of the Inspector General

               Audit Division 


           Audit Report 12-25 

               June 2012

    AUDIT OF STATUTORY SUSPENSION AND DEBARMENT 

     ACTIVITIES WITHIN THE DEPARTMENT OF JUSTICE 


                              EXECUTIVE SUMMARY


      Suspension and debarment are tools established by executive order or
statute to protect the government’s financial interest from unethical,
dishonest, or otherwise irresponsible entities, and to reduce fraud, waste,
and abuse in federal programs.1 Suspension and debarment cover both
procurement and non-procurement activities, and can have a
government-wide, reciprocal effect to limit affected parties’ ability to obtain
federal funding. Suspension and debarment decisions are made either
administratively, by each agency’s Suspension and Debarment Official
(SDO), or statutorily, as a matter of law as a result of convictions for
qualifying offenses.2 This audit examined the Department of Justice’s (DOJ)
implementation and oversight of statutory debarment activities during fiscal
years (FY) 2005 through 2010.3

      DOJ administers two types of statutory debarments: fraud or felony
convictions arising out of a contract with the Department of Defense (DOD)
pursuant to 10 U.S.C. § 2408, and drug trafficking or possession convictions
pursuant to 21 U.S.C. § 862.4 Debarment under 10 U.S.C. § 2408 prohibits
an individual from being involved with a defense contract or first-tier




       1
          Executive Order 12549 designated the Office of Management and Budget (OMB) as
the federal agency responsible for establishing administrative non-procurement suspension
and debarment guidelines for all Executive branch agencies. Subpart 9.4 of the Federal
Acquisition Regulation (FAR) sets forth guidelines covering administrative suspension and
debarment for procurement activities. Executive Order 12689 expanded the scope of
administrative procurement and non-procurement suspension and debarment actions and
mandated government-wide, reciprocal effect.
       2
          Debarment is a final exclusion decision for a specified period of time, generally as
a result of a conviction, while suspension is a temporary action immediately effective to
protect public interest pending the completion of an investigation or legal proceedings.
       3
          Administrative suspension and debarment within DOJ is the subject of a prior
Office of the Inspector General audit: U.S. Department of Justice Office of the Inspector
General, Audit of Administrative Suspension, Debarment, and Other Internal Remedies
Within the Department of Justice, Audit Report 12-01 (October 2011).
       4
         10 U.S.C. § 2408 and 21 U.S.C. § 862 mandate debarment, therefore DOJ is not
responsible for any statutory suspensions.



                                             –i–
subcontract of a defense contract.5 Debarment under 21 U.S.C. § 862
precludes an individual convicted of trafficking in or possession of drugs from
receiving all or selected federal benefits.6

       In 1993, the Attorney General established the Defense Procurement
Fraud Debarment (DPFD) Clearinghouse as the repository for information
regarding an individual’s exclusion status and assigned the responsibility of
administering exclusions under 10 U.S.C. § 2408 to the Bureau of Justice
Assistance (BJA).7 The Attorney General also delegated administration of
exclusions pursuant to 21 U.S.C. § 862 to the Assistant Attorney General for
the Office of Justice Programs (OJP), which in turn assigned the
responsibility to the BJA. This program is known as the Denial of Federal
Benefits (DFB) Clearinghouse. The DFB and DPFD Clearinghouses are two
legally distinct clearinghouses. However, both the DFB and DPFD
Clearinghouses (collectively, the Clearinghouse) share a single point of
contact that uses the same staff and follows a single set of policies and
procedures to receive and report both DFB and DPFD qualifying cases.
Information regarding excluded individuals from both the DFB and DPFD
Clearinghouses is maintained in a single database (Clearinghouse database).

      The BJA is responsible for receiving, maintaining, and responding to
inquiries from federal agencies, contractors, or subcontractors regarding
exclusions pursuant to 10 U.S.C. § 2408 and 21 U.S.C. § 862. Qualifying
DOD cases may be submitted to the BJA for inclusion in the Clearinghouse
database by DOJ litigating divisions, and qualifying drug cases may be
submitted by federal and state courts. The information contained within the
Clearinghouse database is also entered by a BJA contractor into the Excluded
Parties Listing System (EPLS), which is maintained by the General Services
Administration. However, individual agencies are responsible for entry and
maintenance of the individual records contained within the EPLS database.
Suspension and debarment actions are communicated to all government

       5
         Federal Acquisition Regulation Subpart 22.801 defines a first-tier subcontractor as
a subcontractor holding a subcontract awarded directly by a federal government prime
contractor.
       6
         21 U.S.C. § 862(d)(1) defines the term “federal benefit” as “the issuance of any
grant, contract, loan, professional license, or commercial license provided by an agency of
the United States or by appropriated funds of the United States.” However,
21 U.S.C. § 862(d)(2) states that the definition “does not include any retirement, welfare,
Social Security, health, disability, veterans benefits, public housing, or other similar benefit,
or any other benefit for which payments or services are required for eligibility.”
       7
         Although the authority for the DPFD Clearinghouse Program was established in
1993, the program guide used to implement the DPFD Clearinghouse Program was not
published until June 2000.


                                             – ii –
agencies through the EPLS. The Clearinghouse database records regarding
exclusions pursuant to 21 U.S.C. § 862 are also provided directly to the
Department of Education and the Federal Communications Commission to
help ensure that sanctioned drug offenders are excluded from receiving
benefits.8

Office of the Inspector General Audit Approach

      The objectives of our audit were to determine: (1) the extent that
cases qualifying for statutory debarment are reported for inclusion in the
EPLS by DOJ litigating divisions; (2) the completeness and accuracy of
records entered into the EPLS for statutory debarment actions maintained by
DOJ; and (3) the timeliness of reporting statutory debarment actions to the
EPLS.

        To accomplish the objectives of our audit, we performed work at DOJ
litigating divisions to identify qualifying cases. We also conducted interviews
with officials at the Criminal Division, Antitrust Division, and 5 of the 94
U.S. Attorneys’ Offices (USAO) to determine how cases are identified and
tracked, as well as what policies and procedures exist to ensure all qualifying
cases are submitted to the Clearinghouse within the BJA.9

      We analyzed the Clearinghouse database and the EPLS data
maintained by the BJA to determine the reliability, completeness, accuracy,
and timeliness of entry of the data. We also interviewed BJA officials to
determine what policies and procedures exist for qualifying case receipt,
entry into the Clearinghouse database, and transmission to the EPLS.

      The results of our audit are detailed in the Findings and
Recommendations section of this report. Appendix I contains a more
detailed description of our audit objectives, scope, and methodology.


       8
         DOJ and the Department of Education have determined that querying potential
award recipients against the Clearinghouse database is more efficient and effective
than searching for individuals in the EPLS.
       9
          Litigating divisions within DOJ include: the USAOs, Criminal Division, Civil
Division, Civil Rights Division, Antitrust Division, Tax Division, and the Environmental and
Natural Resources Division. Audit work was performed at the USAOs for the districts of
Colorado, Kansas, Arizona, Eastern Virginia, and Southern California; the Executive Office
for U.S. Attorneys; Criminal Division; and Antitrust Division. During our preliminary audit
work, Civil Division officials confirmed that the Civil Division litigates cases involving DOD
contracts, but because 10 U.S.C. § 2408 does not apply to civil cases, the Civil Division was
excluded from the scope of our audit.



                                            – iii –
Results in Brief

        An adequate system has not been established to ensure that DOJ
fulfills its responsibilities pursuant to statutory requirements under 10
U.S.C. § 2408 and 21 U.S.C. § 862. Specifically, we found:

      	 Not all qualifying cases are submitted to the Clearinghouse by DOJ
         litigating divisions;

      	 Not all cases submitted to the Clearinghouse are entered into the
         Clearinghouse database, the EPLS, or both;

      	 Non-qualifying cases were inappropriately entered into the EPLS by
         the Clearinghouse;

      	 Data entered into the Clearinghouse database and the EPLS is not
         always accurate or complete, and corresponding records in each
         database are not always identical; and

      	 Data entry into the Clearinghouse database and the EPLS is not
         consistently performed in a timely manner.

      In sum, we found that statutory exclusions pursuant to
10 U.S.C. § 2408 and 21 U.S.C. § 862 are not completely and accurately
reported, aggregated, and shared with the relevant federal agencies to
inform their award decisions. These shortcomings create the possibility that
federal funding may be inadvertently and inappropriately awarded to
excluded individuals.

      Our report includes 21 recommendations to improve the effectiveness
of the two statutory debarment programs administered by DOJ. The
remaining sections of this Executive Summary describe our audit findings in
more detail.

Qualifying Cases Not Consistently Submitted to the BJA

      During our audit, we found that not all qualifying cases were submitted
by DOJ litigating divisions or sentencing courts to the BJA for inclusion in the
Clearinghouse database and the EPLS.

      The Criminal Division’s Public Integrity Section, Antitrust Division, and
four of the five USAOs we visited were unaware of the reporting
requirements for statutory debarment under 10 U.S.C. § 2408, in part
because the BJA had performed limited outreach using outdated contact


                                     – iv –
information. Additionally, we found that these divisions and USAOs did not
have policies and procedures in place to identify and report qualifying
statutory debarments.10 One of the five USAOs we visited did have policies
and procedures in place to identify and report cases qualifying for statutory
debarment pursuant to 10 U.S.C. § 2408. However, during our audit of this
USAO, we found that 8 of its 19 cases qualifying for statutory debarment
pursuant to 10 U.S.C. § 2408 (42 percent) were not reported to the EPLS by
any agency.

       We also found that the BJA had not performed any outreach to state
and federal courts to request cases where the court had imposed statutory
debarment as a result of drug trafficking and possession convictions
pursuant to 21 U.S.C. § 862. Although our sample was limited, we identified
five federal cases in which the denial of federal benefits had been imposed
by a judge, but had not been submitted to the Clearinghouse for entry into
the Clearinghouse database and the EPLS.

       If qualifying cases under 10 U.S.C. § 2408 and 21 U.S.C. § 862 are
not submitted to the BJA, the BJA cannot enter them into the Clearinghouse
database or the EPLS, thus creating the risk that federal agencies,
contractors, and first-tier subcontractors may inadvertently and
inappropriately award DOD contract funds or federal benefits to excluded
individuals.

Submissions Not Entered into the Clearinghouse Database or the
EPLS

       To ensure that all cases submitted to the BJA were entered into
the Clearinghouse database and the EPLS, we compared DOJ litigating
divisions’ submissions of cases qualifying for debarment pursuant to
10 U.S.C. § 2408 to the Clearinghouse database and the EPLS. We did

       10
          Criminal Division’s Fraud Section was added to the DPFD outreach listing in
April 2009. However, prior to April 2009 the BJA did not request Fraud Section cases
because the guidelines established at the inception of the DPFD program directed the BJA to
only accept cases from USAOs.

         Additionally, the Antitrust Division was not aware of the reporting requirements for
statutory debarment under 10 U.S.C. § 2408 until informed in late 2008 by a DOD official.
In December 2008, the Antitrust Division instructed its attorneys to submit qualifying cases
to the Clearinghouse. However, Antitrust Division attorneys did not consistently report
qualifying cases to the Clearinghouse because they mistakenly believed that the subsequent
administrative debarment and reporting of their cases by DOD components to the EPLS
fulfilled statutory debarment reporting requirements. Antitrust Division officials stated that
they were not informed by the BJA of the reporting requirements and never received a
quarterly request for qualifying cases prior to April 2012.


                                            –v–
not obtain a list of drug cases submitted by federal and state courts to
the BJA because our review was limited to DOJ components, and the
federal and state court systems are outside of the jurisdiction of the
OIG. Therefore, our review specifically covered only the qualifying
DOD cases submitted by the DOJ litigating divisions.

       We found that not all the qualifying cases submitted to the BJA
were entered into the Clearinghouse database, the EPLS, or both.
According to BJA officials, this occurred because USAOs had submitted
incomplete case files and had not responded to the Clearinghouse’s
requests for additional information on submitted cases. Federal
agencies, DOD contractors, and first-tier subcontractors query the
Clearinghouse database to determine an individual’s employment or
contract eligibility. Additionally, the EPLS is used by government
agencies and the public to identify those individuals excluded from
receiving federal contracts, certain subcontracts, and certain types of
federal financial and non-financial assistance and benefits. Therefore,
maintaining an incomplete list of excluded individuals in the
Clearinghouse database or the EPLS creates the potential that DOD
contract funds or federal benefits could be awarded to ineligible
individuals.

Data Discrepancies Between the Clearinghouse Database and the
EPLS

      During our audit, we found that data was not consistently entered into
both the Clearinghouse database and the EPLS. We identified records that
had been entered into the Clearinghouse database or the EPLS, but not both.
We also found cases that did not qualify for exclusion yet were entered into
the EPLS, creating the potential for these individuals to be improperly denied
federal benefits. Finally, we reviewed source documentation for cases
entered into the Clearinghouse database and found that data was not always
accurately or completely entered into that database. Our review identified
errors in the following fields: last name, first name, middle name, social
security number, address, denial start date, denial end date, and the EPLS
Cause and Treatment Code. We calculated the estimated exception rate of
records with at least one error in the tested data fields to be
10.76 percent.11 We did not test the accuracy of records in the EPLS as
compared to source documentation. However, records entered into the

       11
          We computed an estimate of the exception rate of records with at least 1 error in
the tested data fields and projected the number of exceptions to the sample universe of
5,618 records at 95 percent confidence. This calculation resulted in an estimated exception
rate of 10.76 percent.



                                          – vi –
Clearinghouse database are uploaded to the EPLS, and any inaccuracies
contained within the data in the Clearinghouse database could potentially be
carried forward to the EPLS when uploading occurs.12

      We brought these discrepancies to the BJA’s attention and were told
that that they generally resulted from data entry errors, and from the
contractor’s failure to perform semi-annual data reconciliations between the
Clearinghouse database and the EPLS and otherwise ensure the accuracy of
the data entered into the Clearinghouse database. Incomplete, inaccurate,
and inconsistent data within the Clearinghouse database and the EPLS
increases the risk of federal agencies, contractors, and first-tier
subcontractors unknowingly awarding DOD contract funds or federal benefits
to an excluded individual.

Timeliness of Entry of Data into the EPLS

       For the Clearinghouse database and the EPLS to be effective, excluded
individuals’ information must be communicated to the user communities in a
timely manner. Although timeliness of entry into the EPLS is not defined
under 10 U.S.C. § 2408 or 21 U.S.C. § 862, according to BJA policy,
qualifying DOD cases are requested from the USAOs quarterly and manually
entered into the Clearinghouse database and the EPLS within 5 working days
of the receipt of a complete case file. Data for drug cases are entered into
the Clearinghouse database within 5 working days of receiving a case file
and then transmitted on a monthly basis for inclusion in the EPLS.

       During our audit, we found that generally cases were not entered into
the Clearinghouse database within the timeframes established in the BJA’s
policy. BJA policy requires that qualifying DOD cases be entered into the
Clearinghouse and EPLS within 5 working days of receipt, and that qualifying
drug cases are entered into the Clearinghouse within 5 days of receipt and
uploaded to the EPLS on a monthly basis. We found that only 39 percent of
qualifying DOD cases and 67 percent of qualifying drug cases were entered
in a timely manner, and that on average it took 38 working days to enter a
qualifying DOD case from the Clearinghouse database into the EPLS and
158 days to upload a qualifying drug case to the EPLS from the
Clearinghouse database.


       12
          BJA officials explained that defense-related cases are manually entered into the
EPLS and Clearinghouse databases within 5 working days of receiving the complete
information. In cases that are manually entered into both databases instead of
automatically uploaded from the Clearinghouse database, data could potentially be correctly
reported in the EPLS, but incorrectly reported in the Clearinghouse database.



                                          – vii –
      Additionally, despite a requirement in the contract to track when cases
are received, several cases were missing date stamps, and we were
therefore unable to evaluate the timeliness of those entries into the
Clearinghouse database and the EPLS. We found that 90 of the 292 cases
(approximately 31 percent) provided by the BJA for testing did not have a
date of receipt recorded.

       Although BJA policy and the requirements of the contract specify
internal control measures to ensure timeliness of entry, it does not appear
that the contractor is adhering to these policies and procedures, nor is the
BJA identifying and bringing these deficiencies in the operation of the
internal controls to the contractor’s attention. Without timely entry of cases
into the Clearinghouse database and the EPLS, federal agencies, contractors,
and first-tier subcontractors may be awarding DOD contract funds or federal
benefits to excluded individuals.

Conclusions and Recommendations

        DOJ did not report all cases qualifying for statutory debarment as a
result of conviction for fraud or any felony in association with a DOD contract
to the EPLS for the mandatory 5-year debarment in accordance with
10 U.S.C. § 2408. This reporting shortfall was the result of the BJA’s
inadequate outreach and communication of reporting responsibilities to DOJ
litigating components, USAOs not submitting complete case files, and a lack
of a reliable mechanism within the USAOs and other DOJ litigating divisions
to identify and report all cases qualifying for statutory debarment.

      Additionally, inadequate outreach and education by the BJA to state
and federal courts regarding the reporting of drug trafficking and possession
cases pursuant to 21 U.S.C. § 862 resulted in excluded individuals’
information not being forwarded to the BJA for inclusion in the Clearinghouse
database and the EPLS.

        We also found that the BJA failed to adequately ensure that exclusions
reported to the Clearinghouse were accurately and completely added to the
Clearinghouse database and the EPLS in a timely manner. This problem
appears to be the result of inadequate oversight of the contractor to ensure
compliance with BJA policies and contractor requirements. These
deficiencies create the potential for federal agencies, contractors, and
first-tier subcontractors to unknowingly and inappropriately award DOD
contract funds or federal benefits to ineligible individuals.

     Finally, individuals convicted of crimes not qualifying for debarment
pursuant to 10 U.S.C. § 2408 and 21 U.S.C. § 862 were incorrectly reported


                                    – viii –
to the EPLS by the Clearinghouse. As a result, although we did not identify
any specific instances during our audit, the potential exists for these
individuals to be improperly denied federal benefits.

      Our audit work and findings resulted in 21 recommendations to DOJ
and its components to improve the effectiveness of statutory debarment
programs within DOJ. These recommendations include the development and
implementation of additional policies and procedures to improve the
completeness and accuracy of the reporting of debarment actions pursuant
to 10 U.S.C. § 2408 and 21 U.S.C. § 862, the correction of errors and
omissions identified in DOJ records maintained in the EPLS and
Clearinghouse databases, and the enhancement of the monitoring of
Clearinghouse contractors and staff to include more frequent data checks
and evaluations of contractor performance.




                                   – ix –
This page left blank intentionally.
                         TABLE OF CONTENTS

INTRODUCTION ............................................................................... 1
 
       Excluded Parties List System ......................................................... 2
 

       DOD Fraud and Felony Convictions ................................................. 2
 

       Drug Trafficking and Possession Convictions .................................... 4
 

       The BJA’s Implementation of Statutory Responsibilities ..................... 5
 

       Office of the Inspector General Audit Approach ................................ 7
 

FINDINGS AND RECOMMENDATIONS............................................... 9
 
I.	    QUALIFYING CASES NOT CONSISTENTLY SUBMITTED TO THE 

       BJA............................................................................................ 9
 
       Fraud and Other Felony Convictions Related to a DOD Contract .......... 9
 

          Antitrust Division’s Participation ................................................ 10
 
          Criminal Division’s Participation ................................................ 11
 
          United States Attorneys’ Participation ........................................ 15
 
       Drug Trafficking and Possession Convictions .................................. 17
 

       Conclusion ................................................................................ 18
 

       Recommendations...................................................................... 19
 

II.	  SUBMISSIONS NOT ENTERED INTO THE CLEARINGHOUSE 

      DATABASE OR THE EPLS.......................................................... 21
 
       Conclusion ................................................................................ 23
 

       Recommendations...................................................................... 24
 

III.  DATA DISCREPANCIES BETWEEN THE CLEARINGHOUSE 

      DATABASE AND THE EPLS ....................................................... 25
 
       Clearinghouse Data Entry Process ................................................ 25
 

       Clearinghouse Entries for DOD Cases............................................ 27
 

       Clearinghouse Entries for Drug Cases ........................................... 28
 

       Non-qualifying Cases Entered into the EPLS ................................... 30
 

       Clearinghouse Records Compared to Source Documentation ............ 31
 

       Conclusion ................................................................................ 35
 
     Recommendations...................................................................... 36
 

IV.  TIMELINESS OF ENTRY OF DATA INTO THE EPLS .................... 38
 
     BJA Policy for Timely Entry of Cases into the EPLS .......................... 38
 

     DOD Cases ............................................................................... 39
 

     Drug Cases ............................................................................... 41
 

     Receipt of Case File to Entry into the Clearinghouse Database .......... 42
 

     Conclusion ................................................................................ 44
 

     Recommendations...................................................................... 44
 

STATEMENT ON INTERNAL CONTROLS........................................... 46
 
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ..... 48
 
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .............. 49
 
APPENDIX II - OJP RESPONSE ....................................................... 57
 
APPENDIX III - EOUSA RESPONSE ................................................ 65
 
APPENDIX IV - CRIMINAL DIVISION RESPONSE ........................... 67
 
APPENDIX V - ANTITRUST DIVISION RESPONSE........................... 70
 
APPENDIX VI - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

   TO CLOSE THE REPORT ............................................................ 72
 
     Office of Justice Programs ........................................................... 72
 

     Executive Office for U.S. Attorneys ............................................... 76
 

     Criminal Division........................................................................ 78
 

     Antitrust Division ....................................................................... 79
 
                                  INTRODUCTION

       Suspension and debarment are serious actions that a federal agency
may take to preclude individuals or entities from transacting with the
government on procurements, grants, and other government funding
mechanisms. Suspension and debarment cover both procurement and
non-procurement activities, and can have a government-wide, reciprocal
effect to limit affected parties’ ability to obtain federal funding.1 Suspension
and debarment decisions are made either administratively, by each agency’s
Suspension and Debarment Official (SDO), or statutorily, as a matter of law
as a result of convictions for qualifying offenses.

       Administrative exclusions are discretionary actions taken under the
Federal Acquisition Regulation (FAR), under specific agency regulations, or
under the Government-wide Non-procurement Suspension and Debarment
Common Rule.2 These actions are related to awards made by an agency and
are taken at the discretion of the SDO. These actions are not punitive, but
rather actions taken to protect the public from irresponsible individuals and
entities. Debarment is a final decision to exclude an individual or entity for a
specified period from receiving federal funding after a formalized process
and determination by a federal agency’s debarring official. Suspension is a
temporary action effective immediately to protect public interest pending the
completion of an investigation or legal proceedings.

      Actions taken as a result of violations of a statute or executive order
are considered statutory. Unlike administrative exclusions, statutory
suspensions and debarments are punitive. Statutory debarments are
generally mandatory for a fixed period of time specified by each individual
statute, while statutory suspensions are imposed until such time as a
designated official finds the individual is no longer in violation of the statute.
The Department of Justice (DOJ) administers two types of statutory
debarments: fraud or felony convictions arising out of a contract with the

       1
          Executive Order 12549 designated the Office of Management and Budget (OMB) as
the federal agency responsible for establishing administrative non-procurement suspension
and debarment guidelines for all Executive branch agencies. Subpart 9.4 of the Federal
Acquisition Regulation (FAR) set forth guidelines covering administrative suspension and
debarment for procurement activities. Executive Order 12689 expanded the scope of
administrative procurement and non-procurement suspension and debarment actions and
mandated government-wide, reciprocal effect.
       2
          Government-wide Non-procurement Suspension and Debarment Common Rule is
codified in 2 C.F.R. § 180 and the Department of Justice’s (DOJ) adoption of the Common
Rule is codified in 28 C.F.R. § 67. Additionally, DOJ policy on administrative suspension and
debarment is defined in Justice Acquisition Regulations, 48 C.F.R. 2809.



                                           - 1 -

Department of Defense (DOD) pursuant to 10 U.S.C. § 2408, and drug
trafficking or possession convictions pursuant to 21 U.S.C. § 862.3

Excluded Parties List System

      The Excluded Parties Listing System (EPLS) is an electronic,
web-based system maintained by the General Services Administration
(GSA).4 The EPLS contains government-wide information concerning
suspension and debarment actions and identifies parties excluded from
receiving federal awards. The EPLS is available to government agencies and
the public. Entry and maintenance of individual records within the EPLS are
the responsibility of each federal agency.

      As of October 12, 2011, the EPLS database contained a total of
128,194 records, representing 80,182 currently excluded parties and
48,012 exclusions that have expired. DOJ maintains 12,631 of the total
128,194 records, 12,570 statutory debarments and 61 administrative
debarments. Awarding officials are required to review the EPLS prior to
making awards to ensure that no award is made to suspended or debarred
parties.

DOD Fraud and Felony Convictions

      Under 10 U.S.C. § 2408, individuals convicted of fraud or any other
felony arising out of a contract with the DOD shall be prohibited from being
involved with a defense contract or first-tier subcontract of a defense
contract.5 This includes: (1) working in a management or supervisory
capacity, (2) serving on the board of directors, (3) serving as a consultant,
or (4) being involved in any other way, as determined under regulations
prescribed by the Secretary of Defense, with a defense contract or first-tier



       3
          10 U.S.C. § 2408 and 21 U.S.C. § 862 mandate debarment, therefore DOJ is not
responsible for any statutory suspensions. Administrative suspension and debarment within
DOJ is the subject of a prior Office of the Inspector General audit: U.S. Department of
Justice Office of the Inspector General, Audit of Administrative Suspension, Debarment, and
Other Internal Remedies Within the Department of Justice, Audit Report 12-01
(October 2011).
       4
           The web address for the EPLS is http://www.EPLS.gov.
       5
         The Bureau of Justice Assistance (BJA) defines “arising out of a contract” as an act
in connection with attempting to obtain, obtaining, or performing a contract or first-tier
subcontract of any agency, department, or component of the DOD in accordance with
48 C.F.R. § 252.203-7001(a)(1).



                                            - 2 -

subcontract.6 The debarment is mandatory and lasts for a period of 5 years
after the date of conviction unless the Secretary of Defense determines that
the 5-year period should be waived in the interest of national security.7

      The statute requires the Attorney General to establish a single point of
contact for defense contractors and subcontractors to promptly obtain
information regarding a person’s exclusion status. In 1993, the Attorney
General established the Defense Procurement Fraud Debarment (DPFD)
Clearinghouse as the repository for information regarding an individual’s
exclusion status and assigned the responsibility of administering exclusions
under 10 U.S.C. § 2408 to the Bureau of Justice Assistance (BJA).

      Quarterly, the BJA requests each of the 94 United States Attorneys’
Offices (USAO) to submit cases prosecuted by the district that resulted in a
fraud or felony conviction arising out of a contract with the DOD and qualify
for exclusion under 10 U.S.C. § 2408. For each qualifying case, the BJA
requests that the district forward the judgment and commitment order, the
indictment, and the individual’s social security number, date of birth, and
mailing address, to the DPFD Clearinghouse. DOJ litigating divisions can also
submit qualifying cases to the DPFD Clearinghouse once a conviction is
received rather than waiting for the BJA’s quarterly request.8

        After receiving a case, DPFD Clearinghouse staff review the
information for completeness and enter the required information into the
DPFD Clearinghouse database. This information is then transmitted to GSA
for inclusion in the EPLS. In addition to collecting the information related to
convicted individuals and maintaining the database of excluded individuals,
the BJA responds to inquiries from federal agencies, DOD contractors, and
first-tier subcontractors to determine an individual’s employment or contract
eligibility.


       6
          The prohibition does not apply to a contract that is less than or equal to the
simplified acquisition threshold, a contract for the acquisition of commercial items, or a
subcontract under a contract that is less than or equal to the simplified acquisition threshold
or for commercial items. Federal Acquisition Regulation Subpart 22.801 defines a first-tier
subcontractor as a subcontractor holding a subcontract awarded directly by a federal
government prime contractor. Defense Federal Acquisition Regulation Supplement
Subpart 203.507-2(a) prescribes policies and procedures to implement 10 U.S.C. § 2408.
       7
          The BJA defines “conviction date” as the date the judgment is entered against an
individual in accordance with 48 C.F.R. § 252.203-7001(a)(3).
       8
          DOJ litigating divisions include the: USAOs, Criminal Division, Civil Division, Civil
Rights Division, Antitrust Division, Tax Division, and Environmental and Natural Resources
Division.



                                             - 3 -

Drug Trafficking and Possession Convictions

       The Denial of Federal Benefits (DFB) Program is based on
21 U.S.C. § 862, which provides federal and state courts the ability to deny
all or selected federal benefits to individuals convicted of trafficking in or
possession of drugs in combination with other sanctions.9 The denial of
federal benefits sanction helps ensure that individuals found guilty of
violating the Controlled Substances Act will, at the courts’ discretion, forfeit
their claims to most taxpayer-supported economic benefits and other
privileges. The program serves as a warning to casual drug users that, as
students, they can lose their student loans; as broadcasters, they can lose
their Federal Communications Commission licenses; as physicians, they can
lose their authority to prescribe medicine; as pilots, they can lose their
Federal Aviation Administration licenses; and as business owners, they can
lose their Small Business Administration loans or the right to contract with
the federal government.

       Drug related debarments are generally discretionary decisions of the
court and carry different implications depending on the number of
possession or trafficking convictions an individual has received. At the
court’s discretion, for a drug possessor’s first conviction of any federal or
state offense involving the possession of a controlled substance, the
individual shall be ineligible for any or all federal benefits for up to 1 year,
and up to 5 years for a second or subsequent conviction for such an offense.
At the discretion of the court, for a drug trafficker’s first conviction of any
federal or state offense consisting of the distribution of controlled
substances, the individual shall be ineligible for any or all federal benefits for
up to 5 years after such conviction, and up to 10 years for the second
offense. Upon a third or subsequent conviction for such an offense, an
individual shall be permanently ineligible for all federal benefits.

      As required by the statute, a plan was submitted by former President
George H. W. Bush to Congress outlining the implementation of the
program. The plan assigned general supervision and direction of the DFB
Program to the Attorney General, who delegated administration to the
Assistant Attorney General for the Office of Justice Programs (OJP), which in
turn delegated administration to the BJA. The BJA maintains an “information

       9
         21 U.S.C. § 862(d)(1) defines the term “federal benefit” as “the issuance of any
grant, contract, loan, professional license, or commercial license provided by an agency of
the United States or by appropriated funds of the United States.” However, 21
U.S.C. § 862(d)(2) states that the definition “does not include any retirement, welfare,
Social Security, health, disability, veterans benefits, public housing, or other similar benefit,
or any other benefit for which payments or services are required for eligibility.”



                                              - 4 -

clearinghouse” of all state and federal courts provided information regarding
sentences of drug traffickers or possessors that include denial of benefits,
known as the DFB Clearinghouse.

      After a judgment to deny federal benefits is imposed as a result of a
conviction for a qualifying offense, the sentencing court submits information
related to the convicted individual to the DFB Clearinghouse at the BJA. The
DFB Clearinghouse information is: (1) forwarded to GSA for inclusion in the
EPLS; (2) provided directly to the Department of Education, the Federal
Communications Commission, and other providers of federal benefits; and
(3) used by DFB Clearinghouse staff to respond to inquiries from federal
agencies and contractors regarding a specific individual’s denial status.10

The BJA’s Implementation of Statutory Responsibilities

       In addition to obtaining qualifying cases from federal and local courts
and the DOJ litigating divisions, the BJA is responsible for the entry and
maintenance of records in the DFB and DPFD Clearinghouses and the EPLS.
According to BJA officials, a contractor provides operations, maintenance,
and information service support services to the DFB and DPFD
Clearinghouses.11 The DFB and DPFD Clearinghouses are two legally distinct
clearinghouses. However, both the DFB and DPFD Clearinghouses
(collectively, the Clearinghouse) share a single point of contact that utilizes
the same staff and follow a single set of policies and procedures to receive
and report both DFB and DPFD qualifying cases. Information regarding
excluded individuals from both the DFB and DPFD Clearinghouses is
maintained in a single database (Clearinghouse database).12

      According to BJA policy, the BJA receives a qualifying case from the
DOJ litigating divisions or the courts, which are collected weekly by the
contractor.13 The contractor reviews the file for qualification and
completeness. If there is a question regarding a case’s eligibility, the
contractor submits the case to the BJA Program Director for follow-up with
the submitting court or prosecutor. However, the Clearinghouse relies upon
the legal determination of the court or prosecutor responsible for the case as

          10
         DOJ and the Department of Education have determined that matching against the
DOJ database is more efficient and effective than searching for individuals in EPLS.
          11
               REI Systems, Inc. has been the contractor for the BJA since November 2004.
          12
               Throughout the report we will refer to the single database as the Clearinghouse
database.
          13
               Qualifying cases may also be submitted directly to the contractor by fax, mail, or
e-mail.


                                                - 5 -

to whether a legal justification exists for inclusion in the Clearinghouse
database and the EPLS. If the case file does not contain complete
information, the contractor contacts the submitting court or DOJ litigating
component to obtain additional information. After receiving a complete
qualifying case file, the contractor enters the individual’s information into the
Clearinghouse database. After each case or batch of cases has been
entered, a report is generated by the contractor and compared to the court
documents that were submitted. Additionally, the BJA verifies and signs off
on the accuracy of each record. The contractor is required to track the
verification process of each record entered into the Clearinghouse database,
including the date the case is received from the BJA, the date the case is
verified by contractor staff, and the date the BJA verifies the accuracy and
signs off on the record.

       Data is transmitted monthly to the EPLS in the form of an Extensible
Markup Language (XML) printout, which is e-mailed to GSA and
automatically uploaded to the EPLS. Following the e-mail submission, the
status of an upload submission, whether the submission has been accepted
or rejected, is reported to the contractor. For all rejected submissions, the
contractor manually uploads the profiles into EPLS.14 According to the DFB
and DPFD Program Procedure Manual, only the cases that have been entered
into the Clearinghouse database since the last e-mailed data transmission
are entered into the EPLS. BJA officials explained that, although most
individuals’ information is entered into the EPLS in this manner, for
defense-related cases, staff manually enters an individual’s information into
the EPLS and Clearinghouse database within 5 working days of receiving the
complete information. Exhibit 1 illustrates the process by which qualifying
cases are communicated to the Clearinghouse database and the EPLS.




       14
          If an upload contains records that are not in the correct XML format, as prescribed
by GSA, the uploaded information is rejected by the EPLS. The DFB and DPFD Program
manual states that the most common reason for rejection is because there was no social
security number for the individual.



                                           - 6 -

                         EXHIBIT 1: BJA PROCESS FOR 

                    COMMUNICATING STATUTORY DEBARMENTS 





 Source: BJA

       Since the Clearinghouse database and the EPLS are used by different
external users, ensuring data is accurately and completely entered into the
Clearinghouse database and the EPLS enables the government to prevent
DOD contract funds or federal benefits from being awarded to excluded
individuals.15 The contractor is required to verify the accuracy and security
of the data transmissions. Every 6 months, the contractor is required to
ensure the data in the EPLS matches the data in the Clearinghouse
database. Additionally, the DFB Program Guide states that the BJA is
responsible for ensuring the accuracy of entries in the EPLS, by performing a
monthly review and comparing the entries in the EPLS to the information in
the Clearinghouse database.

Office of the Inspector General Audit Approach

      The objectives of our audit were to determine: (1) the extent that
cases qualifying for statutory debarment are reported for inclusion in the
EPLS by DOJ litigating divisions; (2) the completeness and accuracy of
records entered into the EPLS for statutory debarment actions maintained by
DOJ; and (3) the timeliness of reporting statutory debarment actions to the
EPLS.


       15
           As previously stated, the Clearinghouse data related to individuals convicted of
drug trafficking or possession is provided directly to the Department of Education, the
Federal Communications Commission, and other providers of federal benefits to help ensure
that sanctioned drug offenders are excluded from receiving benefits. The Clearinghouse
responds to inquires from federal agencies, DOD contractors, and first-tier subcontractors to
determine an individual’s employment or contract eligibility for DOD contract funding. The
EPLS is available to government agencies and the public.



                                           - 7 -

       To accomplish these objectives, we performed work at DOJ litigating
divisions to identify qualifying cases. We also conducted interviews with
officials at the Criminal Division, Antitrust Division, and 5 of the 94 USAOs to
determine how cases are identified and tracked as well as what policies and
procedures exist to ensure all qualifying cases are submitted to the
Clearinghouse within the BJA.16

       We analyzed the Clearinghouse database and the EPLS data
maintained by the BJA to determine the reliability, completeness, and
accuracy of the data. We also interviewed BJA officials to determine what
policies and procedures exist for qualifying case receipt, entry into the
Clearinghouse database, and transmission to the EPLS. Appendix I contains
a more detailed description of our audit objectives, scope, and methodology.




       16
            Audit work was performed at the USAOs for the districts of Colorado, Kansas,
Arizona, Eastern Virginia, and Southern California; Executive Office for U.S. Attorneys;
Criminal Division; and Antitrust Division. During our preliminary audit work, Civil Division
officials confirmed that Civil Division litigates cases involving DOD contracts, but because
10 U.S.C. § 2408 does not apply to civil cases, the Civil Division was excluded from the
scope of our audit.



                                            - 8 -

               FINDINGS AND RECOMMENDATIONS 


I.	   QUALIFYING CASES NOT CONSISTENTLY SUBMITTED
      TO THE BJA

      During our audit, we found that the Public Integrity Section of
      the Criminal Division, the Antitrust Division, and four of the five
      USAOs visited were unaware of the reporting requirements for
      statutory debarment under 10 U.S.C. § 2408 because the BJA
      had performed limited outreach and was using outdated contact
      information. Individuals qualifying for debarment under
      10 U.S.C. § 2408 were not reported to the BJA for inclusion in
      the Clearinghouse database and the EPLS. Additionally, we
      found that these divisions and USAOs did not have policies and
      procedures to identify and report qualifying statutory
      debarments to the BJA for inclusion into the EPLS. We also
      found that the BJA had not performed any outreach to state and
      federal courts to request cases where the court had imposed
      statutory debarment as a result of drug trafficking and
      possession convictions pursuant to 21 U.S.C. § 862. As a result,
      we identified drug cases and DOD-related fraud and felony cases
      that qualified for statutory debarment but had not been entered
      into the EPLS. If qualifying cases are not entered into the
      Clearinghouse database or the EPLS, federal agencies,
      contractors, and first-tier subcontractors may be awarding DOD
      contract funds or federal benefits to excluded individuals.

Fraud and Other Felony Convictions Related to a DOD Contract

       Fraud or felony cases involving DOD procurement can be federally
prosecuted by DOJ litigating divisions. During site visits to the USAOs for
the districts of Colorado, Kansas, Arizona, Southern California, and Eastern
Virginia, we reviewed documentation and conducted interviews to determine
what policies and procedures are in place to ensure compliance with
reporting requirements under 10 U.S.C. § 2408. Under the statute,
individuals convicted of fraud or any other felony arising out of a contract
with the DOD are prohibited from receiving DOD contract funds. To meet
the statutory reporting requirement, the BJA sends a quarterly reminder to
the USAOs requesting all cases qualifying for debarment under
10 U.S.C. § 2408 be forwarded for inclusion in the Clearinghouse database
and the EPLS. According to BJA officials, although a reminder is sent
quarterly, the USAOs may report qualifying cases as they are identified.



                                     - 9 -

       To determine if all qualifying cases were submitted to the BJA for
inclusion in the Clearinghouse database and the EPLS, we requested a list of
cases that have resulted in convictions related to DOD contracts from fiscal
years (FY) 2005 to 2010 from each DOJ litigating division within the scope of
our audit. We also requested a list from the Clearinghouse of all DOD cases
that had been submitted by DOJ litigating divisions. We then compared the
two lists to identify any cases that qualified but were not submitted to the
Clearinghouse.

Antitrust Division’s Participation

      The Antitrust Division provided a list of 71 cases qualifying for
debarment under 10 U.S.C. § 2408 that involved 66 individuals and
21 companies. According to the statute, only individuals qualify for
exclusion, therefore the 66 individuals convicted of fraud or a felony in
connection with a DOD contract qualify for debarment and should have been
forwarded to the Clearinghouse.

       According to Antitrust Division officials, the Antitrust Division was not
aware of the reporting requirements for statutory debarment under
10 U.S.C. § 2408 until informed in late 2008 by a DOD official. Additionally,
Antitrust Division officials indicated that they were never informed by the
BJA of the reporting requirements and never received a quarterly request for
qualifying cases during the scope of our audit. In December 2008, after
being informed of the requirements by a DOD official, the Antitrust Division
instructed its attorneys to submit qualifying cases to the Clearinghouse.
However, Antitrust Division attorneys did not subsequently report qualifying
cases to the Clearinghouse because they mistakenly believed that the
subsequent administrative debarment and reporting of their cases by DOD
components to the EPLS fulfilled statutory debarment reporting requirements
pursuant to 10 U.S.C. § 2408. As such, the Antitrust Division did not have
specific procedures to refer cases resulting in convictions related to a fraud
or felony arising out of a contract with the DOD to the Clearinghouse.

       Although Antitrust Division officials told the OIG that it did not receive
quarterly requests from the BJA, it had submitted 3 of the 66 qualifying
individuals to the Clearinghouse. We asked Antitrust Division officials why
3 of the 66 individuals were submitted despite not knowing of the reporting
requirements. We were told that the Antitrust Division works very closely
with agents from affected agencies in an investigation and previously relied
upon military officials involved with investigating violations relating to DOD
contracts to report matters for exclusion. However, for these three
individuals, all related to one case, the DOD requested that the Antitrust
Division submit the individuals to the Clearinghouse.


                                      - 10 -
       Since the Antitrust Division mistakenly relied on the affected agency to
impose a suspension or debarment, we searched the EPLS to determine
whether the 66 individuals had been administratively excluded by the DOD,
statutorily excluded by the Clearinghouse, or never entered into the EPLS.
Of the 66 individuals, we found as of June 9, 2011: 7 had been entered for
statutory exclusion by the Clearinghouse; 19 individuals had been entered
for administrative exclusion by the affected agency, but the exclusion was
for longer than required under the statute; 27 individuals were entered for
administrative exclusion by the affected agency, but the exclusion was
shorter than required under the statute; and 13 individuals were never
entered into the EPLS by any agency.17

      Although 46 of the 66 individuals were entered into the EPLS by the
affected agency, these individuals were not entered into the Clearinghouse
database. Therefore, direct users of the Clearinghouse database—federal
agencies, DOD contractors, and first-tier subcontractors—would not be
aware of these exclusions and could potentially award DOD contract funds to
excluded individuals. Additionally, the 27 individuals who were
administratively excluded by the affected agency for less time than required
by the statute could result in these individuals obtaining DOD contract
funding before their statutory debarment had expired. Finally, an agency
SDO may reduce the original period of debarment as prescribed by the FAR,
Subpart 9.406-4. Therefore, the potential exists that the debarment period
for the 19 individuals that were administratively excluded by the affected
agency for longer than required under the statute may be reduced, which
could result in an individual obtaining DOD funding before the statutory
debarment had expired.

Criminal Division’s Participation

      Two sections of the Criminal Division indicated that they prosecute
cases involving DOD procurement: the Fraud Section and the Public
Integrity Section. The Fraud Section provided a listing of 34 individuals
qualifying for debarment under 10 U.S.C. § 2408, and the Public Integrity
Section provided a listing of 29 individuals.18 According to Criminal Division
       17
         Three of the seven cases entered into the EPLS by the Clearinghouse were
submitted by the Antitrust Division. The remaining four cases entered by the Clearinghouse
were submitted by the USAOs.
       18
          Two qualifying cases provided by the Public Integrity Section were jointly
prosecuted with the Fraud Section and the Antitrust Division and were also on the Fraud
Section’s and Antitrust Division’s lists of qualifying cases. In addition, six qualifying cases
provided by the Public Integrity Section were jointly prosecuted with the Antitrust Division
and were also on its list of qualifying cases.


                                             - 11 -
officials, prior to April 2009, the Fraud Section had not received any requests
for qualifying DOD cases from the BJA.19 However, the Criminal Division
provided documentation demonstrating that they notified the Clearinghouse
in 2007 that DOJ’s reporting of debarments under 10 U.S.C. § 2408 may not
be complete.

      We asked BJA officials why they had not requested qualifying cases
from the Criminal Division and were informed that when the DPFD Program
was first established the decision was made to only request cases from
USAOs. Although this decision was made more than 10 years ago, the BJA
continued to follow these established guidelines even after they became
aware that other components within DOJ litigate some qualifying cases
independently of any USAO. Later, in 2009, the Criminal Division and the
DOD met with the BJA to express concerns that the Clearinghouse was not
accepting qualifying cases from all DOJ litigating divisions. As a result, the
Fraud Section was added to the outreach listing for quarterly case requests.
Despite the BJA’s awareness of qualifying cases originating from outside the
USAOs, it did not perform any additional outreach to obtain qualifying cases
from other DOJ litigating divisions. As of November 2011, the BJA had not
contacted the Antitrust Division or Public Integrity Section of the Criminal
Division.

       From April 2009 to December 2011, the Fraud Section submitted
16 qualifying cases to the Clearinghouse.20 According to Fraud Section
officials, qualifying cases are identified through its internal case
management system as well as quarterly e-mails to prosecuting attorneys of
the Fraud Section requesting any qualifying cases. We compared the list of
qualifying cases provided by the Fraud Section to the list of cases submitted
to the Clearinghouse and identified three DOD cases that were on the list
submitted to the Clearinghouse, but were not included on the list of
qualifying cases the Fraud Section provided to the OIG. Additionally, we
identified seven qualifying DOD cases that had not been submitted to the
Clearinghouse. The Fraud Section also provided another 13 qualifying cases
that were not submitted to the Clearinghouse because they occurred prior to
2009, when the BJA first requested qualifying cases from the Fraud
Section... Fraud Section officials explained that the discrepancy between the
number of cases provided to the OIG as qualifying and the number

       19
           The first BJA request the Fraud Section received was for the submission of all
qualifying cases for the third quarter of fiscal year 2009, which is April 2009 through
June 2009.
       20
          One case was submitted by the Fraud Section in two separate responses to the
BJA’s quarterly request for qualifying cases.



                                           - 12 -
submitted to the Clearinghouse arose due to different staff preparing the
listing of qualified cases provided to the OIG and the submissions to the BJA.
Fraud Section officials further explained that the majority of the cases not
submitted were convictions related to bribery, and that the Fraud Section
would promptly submit the missing cases to the Clearinghouse.

      Public Integrity Section officials told us they were unaware of their
obligations under 10 U.S.C § 2408. They also informed us that they were
never contacted by the BJA regarding the reporting requirements for
qualifying convictions. Because they were unaware of their obligations to
report qualifying cases, the Public Integrity Section did not have specific
procedures to refer qualifying cases to the Clearinghouse.

      Of the qualifying cases provided by the Fraud Section and Public
Integrity Section, we searched the EPLS to determine which individuals had
been administratively excluded by the DOD, statutorily excluded by the
Clearinghouse, or never entered into the EPLS. Of the 34 individuals
prosecuted by the Fraud Section, we found that as of June 27, 2011:
13 individuals had been statutorily excluded by the Clearinghouse;
5 individuals had been administratively excluded by the affected agency, but
the exclusion was for longer than required under the statute; 13 individuals
were administratively excluded by the affected agency, but the exclusion
was shorter than required under the statute; and 3 individuals were never
entered into the EPLS by any agency.21 Of the 29 individuals prosecuted by
the Public Integrity Section, we found that as of June 27, 2011: 1 individual
had been statutorily excluded by the Clearinghouse; 13 individuals had been
administratively excluded by the affected agency, but the exclusion was for
longer than required under the statute; 8 individuals were administratively
excluded by the affected agency, but the exclusion was shorter than
required under the statute; and 7 individuals were never entered into the
EPLS by any agency, creating the potential for federal agencies, DOD
contractors, and first-tier subcontractors to unknowingly award DOD
contract funds to an ineligible individual, as shown in Exhibit 2.22




      21
          The Fraud Section submitted 7 of the 13 DOD cases entered into the EPLS by the
Clearinghouse. The remaining six cases entered by the Clearinghouse were submitted by
the USAOs.
      22
         The one DOD case entered into the EPLS by the Clearinghouse was submitted by
the USAOs.



                                         - 13 -
             EXHIBIT 2: DEBARMENT REPORTED TO THE EPLS FOR 

                  QUALIFYING CRIMINAL DIVISION CASES 


  14

  12                                                Statutorily Excluded by DOJ

  10
                                                    Administratively Excluded by
   8                                                Affected Agency-Longer Than
                                                    Statutory
   6                                                Adminsitratively Excluded by
                                                    Affected Agency-Shorther
   4                                                Than Statutory

   2                                                Never Entered


   0
          Criminal Fraud    Public Integrity
             Section           Section

Source: Criminal Division

       Although 18 of the Fraud Section’s 34 cases and 21 of the Public
Integrity Section’s 29 cases were entered into the EPLS by the affected
agency, these cases were not entered into the Clearinghouse database.
Given that the Clearinghouse database may be utilized directly by federal
agencies, DOD contractors, and first-tier subcontractors to determine
employment or contract eligibility, such users would not be aware of these
exclusions and could potentially award funds to excluded individuals.
Additionally, 13 individuals from the Fraud Section and 8 individuals from
the Public Integrity Section were administratively excluded by the affected
agency for less time than required by the statute, which means these
individuals could obtain DOD contract funding before their statutory
debarment has expired. Finally, an agency SDO may reduce the original
period of debarment as prescribed by the FAR, Subpart 9.406-4. Therefore,
the potential exists that the debarment period of the 5 individuals from the
Fraud Section and 13 individuals from the Public Integrity Section that were
administratively excluded by the affected agency for longer than required
under the statute may be reduced, which could result in an individual
obtaining DOD funding before the statutory debarment had expired.




                                    - 14 -
United States Attorneys’ Participation

       We were unable to obtain a list of all USAOs’ qualifying cases under
10 U.S.C. § 2408 from the Executive Office for U.S. Attorneys (EOUSA).23
Information related to USAO cases is maintained in the Legal Information
Network System (LIONS), a case management system. EOUSA officials
explained that a data query in LIONS will not identify the source of funding
associated with convictions and therefore is unable to identify qualifying
DOD cases pursuant to 10 U.S.C. § 2408. Due to the limitations of the
LIONS data, we judgmentally selected a sample of five USAOs to conduct
site visits to review case files and determine whether or not a case qualified
for debarment and should have been forwarded to the BJA for inclusion in
the EPLS. USAOs were selected based upon the number of drug and DOD
related conviction within each district and imposition of the Denial of Federal
Benefits by courts within the districts. For the USAOs selected, we obtained
a list of all convictions in which the lead investigative agency in LIONS was
the DOD.24 We used this list to judgmentally select a sample of cases for
review to determine eligibility for debarment under 10 U.S.C. § 2408. DOD
related cases were selected based upon conviction status and the description
of the offense provided in LIONS.


       Identification of Qualifying Cases

      Our testing at the USAOs for the districts of Colorado, Kansas, and
Arizona, did not identify any DOD cases that qualified for exclusion under
10 U.S.C. § 2408. However, officials at the USAOs for these districts told us
that their office had not received the quarterly requests from the BJA to
submit qualifying cases to the Clearinghouse prior to our audit, and were
unaware of their obligations under 10 U.S.C. § 2408 to forward cases to the
BJA for inclusion in the Clearinghouse database and the EPLS.

       At the USAO for the district of Southern California, we identified three
individuals that qualified for debarment under 10 U.S.C. § 2408. We
searched the EPLS to determine which individuals had been administratively
excluded by the affected agency, statutorily excluded by the Clearinghouse,

       23
            To obtain information from all USAOs, we worked with the EOUSA, which serves
as the liaison between DOJ in Washington, D.C., and the 94 USAOs located throughout the
50 states, the District of Columbia, Guam, the Northern Mariana Islands, Puerto Rico, and
the U. S. Virgin Islands.
       24
           The data generated from LIONS was used solely for the selection of a sample for
additional testing and review. Therefore, we did not perform any audit work related to the
data reliability of LIONS.



                                          - 15 -
or never entered into the EPLS. We found that as of October 24, 2011, one
individual had been administratively excluded by the affected agency, but
the exclusion was for longer than required under the statute; and two
individuals were never entered into the EPLS by any agency. According to
officials at this USAO, prior to our audit, their office had never received a
quarterly request from the BJA to submit qualifying cases to the
Clearinghouse. Instead, they generally rely on the affected agencies’ SDOs
to pursue debarment.

      At the USAO for the district of Eastern Virginia, we identified
19 individuals that qualified for debarment under 10 U.S.C. § 2408. We
searched the EPLS to determine which individuals had been administratively
excluded, statutorily excluded by the Clearinghouse, or never entered into
the EPLS. We found that as of October 5, 2011, five individuals had been
entered by the Clearinghouse; two had been entered by the affected agency,
but the exclusion was for longer than required under the statute; four had
been entered by the affected agency, but the exclusion was shorter than
required under the statute; and eight were never entered into the EPLS by
any agency.

       According to officials at the USAO for the district of Eastern Virginia,
they have received quarterly requests from BJA, although not on a regular
basis. However, this district submits qualifying cases quarterly to the BJA
regardless of receiving BJA requests. Cases are identified by a paralegal
who reviews the weekly report sent out by the USAO for the district of
Eastern Virginia providing an update from every attorney about every case.
If a case qualifies, the paralegal enters the case information into a
spreadsheet to track the status of the case. Upon conviction, the case is
forwarded to the BJA in the quarter a sentence is received. Since all cases
are reported in the weekly report, officials at the USAO for the district of
Eastern Virginia believed that the tracking system was adequate to ensure
that all qualifying cases were forwarded to the BJA.


      Submission of Qualifying Cases

      To verify if qualifying cases had been submitted to the BJA by the
USAOs for the districts of Southern California and Eastern Virginia, we
requested the submissions of qualifying cases from the USAOs to the BJA for
comparison to the qualifying cases identified during our review. We found
that four of the five USAOs we visited were never informed of the reporting
requirement due to an outdated contact list used by the BJA, and therefore
did not submit any qualifying cases. According to the EOUSA, after its



                                     - 16 -
review of the BJA’s e-mail contact list for each USAO, at least 20 districts
had a point of contact listed that was no longer employed at the USAO.

       As described above, we identified 10 DOD cases, 8 cases from the
USAO for the district of Eastern Virginia, and 2 cases from the USAO for the
district of Southern California that qualified under 10 U.S.C. § 2408 but had
not been reported to the EPLS by any agency. However, due to data
limitations and incomplete documentation described above, we were unable
to identify the specific cause for cases that were not reported for inclusion in
the Clearinghouse database and the EPLS. During our audit, for those
USAOs that had qualifying cases, we were able to identify general causes for
the qualifying cases not being reported in the EPLS such as: (1) the USAOs
did not submit all qualifying cases under 10 U.S.C. § 2408; (2) USAOs
submitted qualifying cases by e-mail to the BJA that failed to reach the
intended recipient; and (3) the BJA failed to enter qualifying cases received
from DOJ litigating divisions into the EPLS, Clearinghouse database, or
both.25

Drug Trafficking and Possession Convictions

       The denial of federal benefits can be imposed by a judge in a federal
or state court as a result of a conviction for trafficking or possession of
drugs. Because our audit was limited to DOJ components, we did not have
access to information from the courts related to the total number of cases in
which the denial of federal benefits had been imposed. To identify qualifying
cases, we judgmentally selected USAOs in the districts of Colorado, Kansas,
Arizona, and Southern California to review case files and identify any cases
where the denial of federal benefits had been imposed but the case had not
been submitted to the BJA.26 For the USAOs selected, we obtained a listing
of all drug-related convictions for FYs 2006 through 2010 from LIONS. For
each USAO district, we randomly selected 100 drug cases and reviewed the
Judgment and Commitment orders to determine if denial of federal benefits
had been imposed.27


       25
            Item 3 is discussed in greater detail in Finding II of this report.
       26
          We did not review drug cases in the district of Eastern Virginia. Due to the high
number of DOD-related cases prosecuted by the Eastern district of Virginia, we limited our
review to only DOD-related cases.
       27
           For the USAO for the district of Colorado a total sample size of 100 cases was
selected, including 84 drug cases. However, because judgment and commitment orders
were readily available for a drug case, our sample size was subsequently increased to
include 100 drug cases for the remaining districts.



                                              - 17 -
      We identified seven cases from the district of Kansas and three cases
from the district of Arizona where the judge had denied the individual’s
federal benefits.28 Of those cases, one case from the district of Kansas and
three cases from the district of Arizona had not been entered into the
Clearinghouse database or the EPLS.29 Because the court system is outside
of the jurisdiction of the OIG, we were unable to identify a specific cause for
these omissions. However, the omission of cases from the EPLS could
potentially be attributed to: (1) a lack of knowledge of whom to report
denial of federal benefits to, (2) a failure by the courts to submit qualifying
cases, or (3) a failure by the BJA to enter submitted cases. Although we did
not identify any specific instances of these potential causes occurring during
our audit, we asked what outreach the BJA had performed to ensure courts
were aware of the Clearinghouse. BJA officials stated that the BJA had not
performed any outreach to state or federal courts since 2005 because there
is no way of knowing which judges are imposing the denial of federal
benefits. As a result of this lack of outreach by the BJA, there is an
increased likelihood that individual courts may not be familiar with reporting
requirements for the denial of federal benefits.

       Although our review of drug cases was limited, we determined that not
all individuals that have been denied federal benefits were entered into the
Clearinghouse database or the EPLS. These omissions are significant
because they potentially allow individuals to inappropriately receive federal
benefits.30

Conclusion

        We found that not all qualifying cases are being submitted by DOJ
litigating divisions or sentencing courts to the BJA for inclusion in the

       28
         In the districts of Colorado and Southern California we did not identify any cases
where the judge denied the federal benefits of an individual.
       29
           Officials from the USAO for the district of Kansas provided an additional case that
was not requested in the sample where the minutes of the proceedings indicated that
federal benefits were denied. However, the judgment and committal order did not specify
that these benefits were denied. We determined that this drug case had not been entered
into the Clearinghouse database or the EPLS.
       30
           An analysis performed by the Department of Education on its use of the
Clearinghouse database to identify ineligible applicants for student financial aid for 2008
identified 79 individuals who did not qualify for federal student financial assistance, but who
would have otherwise received aid had the match not existed. This example demonstrates
that when the information provided to the Department of Education from the Clearinghouse
database is incomplete or inaccurate, the potential exists for individuals to inappropriately
receive federal benefits.



                                            - 18 -
Clearinghouse database and the EPLS. For the DOD cases, DOJ litigating
divisions generally do not have a system to identify and track qualifying
cases. Additionally, not all DOJ litigating divisions and USAOs were aware of
their obligations under 10 U.S.C. § 2408 due to a lack of outreach performed
by the BJA.

       For qualifying drug cases, our limited sample identified five federal
cases in which the denial of federal benefits had been imposed by the judge
but had not been entered in the Clearinghouse database or the EPLS. We
also found that the BJA had not performed any outreach to federal or state
courts since prior to 2005 in order to ensure qualifying drug cases are
submitted to the Clearinghouse.31 If qualifying cases under
10 U.S.C. § 2408 and 21 U.S.C. § 862 are not entered into the
Clearinghouse database or the EPLS, federal agencies, contractors, and first-
tier subcontractors are unable to ensure excluded individuals are not
awarded DOD contract funds or federal benefits.

Recommendations

We recommend that the Criminal Division, the Antitrust Division, and the
USAOs:

   1. Develop and implement policies and procedures to accurately identify
      and track qualifying DOD cases.

   2. Develop and implement a system to ensure qualifying DOD cases are
      submitted timely to the BJA.

   3. Submit all qualifying cases that should be actively excluded.




       31
           According to BJA officials, they are currently in the process of completing a new
web-based system to replace the current Clearinghouse database, and to help improve the
efficiency of the process for entering excluded individuals’ information into the EPLS. Since
the system was not complete at the time of our audit, we did not perform an evaluation of
the system. However, in order for the new system to be effective, the BJA will need to
perform sufficient outreach and education to inform users of the availability and
functionality of the new system.



                                           - 19 -
We recommend that the BJA:

  4. Increase outreach to provide information on the DFB Program to state
     and federal courts through such means as the Administrative Office of
     the United States Courts, state judicial associations, National District
     Attorneys Association, etc.

  5. Increase outreach to DOJ litigating divisions so that they are aware of
     the Clearinghouse and the requirements under 10 U.S.C. § 2408 using
     means sufficient to reach all criminal attorneys within the DOJ
     litigating divisions, including using the National Advocacy Center and
     online training.

  6. Develop and implement policies and procedures to ensure the list of
     contacts used for outreach is complete, accurate, and regularly
     updated, and includes all DOJ litigating divisions.

  7. Update its policy to only accept qualifying DOD cases from the USAOs
     to include accepting qualifying DOD cases from all litigating divisions of
     DOJ.




                                    - 20 -
II. 	 SUBMISSIONS NOT ENTERED INTO THE
      CLEARINGHOUSE DATABASE OR THE EPLS

          To ensure that all qualifying cases submitted to the BJA were
          entered into the Clearinghouse database and the EPLS, we
          compared the submissions from DOJ litigating divisions to the
          Clearinghouse database and the EPLS. We found that the BJA
          did not enter all ineligible individuals’ information into the
          Clearinghouse database, the EPLS, or both. According to BJA
          officials, this occurred because USAOs had submitted incomplete
          case files and had not responded to the Clearinghouse’s requests
          for additional information on submitted cases. Maintaining an
          incomplete list of excluded individuals in both the Clearinghouse
          database and the EPLS increases the risk that ineligible
          individuals will be awarded DOD contract funding or federal
          benefits.

      According to BJA officials, a contractor provides operations,
maintenance, and information service support services to the DFB and DPFD
Programs. Contractor staff is responsible for collecting qualifying cases
submitted by DOJ litigating divisions or the courts from the BJA mail room
weekly.32 Contractor staff reviews the information for completeness and
enters the case into the Clearinghouse database and the EPLS.33

      To verify that all cases submitted to the BJA were entered into the
Clearinghouse database and the EPLS, we requested all submissions
obtained by the BJA from DOJ litigating divisions and compared the cases
submitted to the Clearinghouse database and the EPLS. We found two cases
submitted by the Criminal Division and three cases submitted by the USAOs
that were in the Clearinghouse database but had not been entered into the
EPLS.34 Also, we found five cases submitted by the Criminal Division and
two cases submitted by the USAOs that were in the EPLS but not in the



          32
               Qualifying cases may also be submitted directly to the contractor by fax, mail, or
e-mail.
          33
          Per BJA policy, DOD cases are entered directly into the Clearinghouse database
and the EPLS within 5 working days of receipt. Drug cases are entered into the
Clearinghouse database within 5 days of receipt and uploaded monthly to the EPLS.
          34
          Two of the three DOD cases from the USAOs were submitted by both the Criminal
Division and the USAO. Therefore, a total of three cases were entered into the
Clearinghouse database but not entered into the EPLS.



                                                - 21 -
Clearinghouse database.35 In addition, we found four cases from the
Criminal Division and eight cases from the USAOs that had been submitted
to and received by the BJA, but not entered into either the Clearinghouse
database or the EPLS.

        After reviewing the submissions provided by the BJA, we requested the
list of qualifying DOD cases submitted to the Clearinghouse from all USAOs
for FYs 2005 through 2010. While compiling the requested data, we were
informed by EOUSA officials that several USAOs had never been informed of
the reporting requirement, and therefore had not submitted any qualifying
cases. Additionally, at least 7 of the 94 USAO districts reported that they
had submitted responses to the quarterly requests from the BJA but did not
retain the documentation. As such, we could not obtain a complete list of
submissions by the USAOs to the Clearinghouse. Because of these data
limitations, we were unable determine whether a USAO was contacted by
the BJA regarding its reporting responsibilities or if it was aware of its
reporting responsibilities but did not submit any qualifying cases. Despite
this data limitation, we were able to obtain a list of 84 cases that had been
submitted to the Clearinghouse from FYs 2005 through 2010 as well as a list
of 22 qualifying cases that were identified as a result of our audit request.36

      We compared the 84 cases submitted by the USAOs to the
Clearinghouse database and found that as of October 15, 2010, 24 cases
(29 percent) had been submitted but never entered into the Clearinghouse
database. We also compared the 84 cases to DOJ records in the EPLS and
found that as of January 19, 2011, 26 cases (31 percent) had been
submitted but never entered into the EPLS.37

      We provided the BJA with a list of the missing records identified during
our audit. BJA officials provided the following responses as to why these
omissions had occurred.




       35
          One of the two DOD cases from the USAOs was submitted by both the Criminal
Division and the USAO. Therefore, a total of six cases were entered into the EPLS but not
entered into the Clearinghouse database.
       36
           Ten cases were identified by the district of Southern California, three cases were
identified by the district of Maine, three cases were identified by the district of Northern
Alabama, one case was identified by the district of Eastern Texas, and five cases were
identified by the district of Northern Ohio.
       37
           Twenty-four of the 84 cases (29 percent) had been submitted but not entered into
either the Clearinghouse database or the EPLS.



                                           - 22 -
      The BJA provided the following reasons for records missing in the
Clearinghouse, the EPLS, or both:

         	 Cases identified as not having a record in either the
            Clearinghouse database or the EPLS had been entered, but due
            to data entry errors or differences between the names listed on
            court documents and those submitted by the USAOs, the records
            did not match.

         	 Cases had not been entered into the Clearinghouse database or
            the EPLS because incomplete case files had been submitted by
            the USAOs. The BJA requested the missing information.
            However, some USAOs did not respond to the BJA’s requests.
            Because the BJA does not have the authority to force the USAOs
            to comply with requests for information the only course of action
            is to continue to perform outreach. Cases are entered into the
            Clearinghouse database and the EPLS upon receipt of the
            missing information.

         	 Cases not in the Clearinghouse, the EPLS, or both had a
            conviction date within the scope of the OIG audit, but had not
            submitted to the BJA during the scope. Therefore the cases had
            not been entered into the Clearinghouse database or the EPLS at
            the time of our analysis, but have since been entered.

         	 The BJA did not have any record of two cases being submitted to
            the Clearinghouse.

Conclusion

       Of the cases that were submitted to the BJA, we found that not all the
individuals’ information was entered into the Clearinghouse database, the
EPLS, or both. Federal agencies, DOD contractors, and first-tier
subcontractors query the Clearinghouse database to determine an
individual’s employment or contract eligibility. Additionally, the EPLS is
available to government agencies and the public to identify those individuals
excluded from receiving federal contracts, certain subcontracts, and certain
types of federal financial and non-financial assistance and benefits.
Therefore, maintaining an incomplete list of excluded individuals in both the
Clearinghouse database and the EPLS creates the potential that DOD
contract funds or federal benefits could be awarded to ineligible individuals.




                                    - 23 -
Recommendations

We recommend that the Criminal Division, the Antitrust Division, and the
USAOs:

   8. Develop policies to ensure case information submitted to the BJA
      contains all required information for entry into the Clearinghouse
      database and the EPLS.

   9. Promptly respond to inquiries from Clearinghouse staff related to
      submitted cases.

We recommend that the BJA:

  10. Ensure that it is adequately monitoring Clearinghouse staff to ensure
      all submitted cases are entered into both the Clearinghouse database
      and the EPLS.

  11. Enhance its policies and procedures to ensure that all qualifying cases
      submitted are entered into both the Clearinghouse database and the
      EPLS.

  12. Immediately enter any qualifying cases identified in this audit to both
      the Clearinghouse database and the EPLS, and identify and enter any
      additional cases that may have been submitted but not entered.




                                   - 24 -
III. DATA DISCREPANCIES BETWEEN THE
     CLEARINGHOUSE DATABASE AND THE EPLS

      As stated previously, in order for the Clearinghouse and the
      EPLS to be effective in ensuring excluded individuals do not
      receive DOD contract funds or federal benefits the data entered
      must be complete, accurate, and consistent between the two
      databases. During our audit we found data discrepancies
      between both databases, including differences in name spellings,
      social security numbers, and dates of exclusion. Additionally, we
      found that as of October 15, 2010, the number of records
      contained in the Clearinghouse database exceeded the number
      of DOJ records reported to the EPLS by 3,238. We also found
      cases that did not qualify for exclusion were entered into the
      EPLS, creating the potential for these individuals to be
      improperly denied federal benefits. Based on a review of source
      documentation from cases entered into the Clearinghouse
      database, we found that data was not always accurately or
      completely entered into the Clearinghouse database.
      Incomplete, inaccurate, and inconsistent data within the
      Clearinghouse database and the EPLS increases the risk of
      federal agencies, contractors, and first-tier subcontractors
      unknowingly awarding DOD contract funds or federal benefits to
      an excluded individual.

Clearinghouse Data Entry Process

       BJA officials explained that after the contractor’s staff reviews a case
for eligibility and completeness, an individual’s information is entered into
the Clearinghouse database within 5 working days of receiving a qualifying
case. The information requested for entry includes the individual’s: full
name, first, middle, and last; social security number; date of birth; address;
EPLS Cause and Treatment Code; and exclusion start and end dates.38 Entry
into the Clearinghouse database requires at least a first and last name, EPLS
Cause and Treatment Code, and the exclusion period. Once the information
is entered, the contractor is required to verify and validate the record
entered into the Clearinghouse database. After each case or batch of cases

      38
           According to the GSA, the EPLS Cause and Treatment Code provides users with
information regarding the reason for the exclusion. The cause indicates the authority by
which the action was taken and the treatment provides information on the procedure(s) to
apply to the action. The GSA’s description of the EPLS Cause and Treatment Code states
that users should review the record's EPLS Cause and Treatment Code(s) to determine the
conditions of the exclusion.



                                         - 25 -
has been entered, the contractor generates a report and the information in
the report is compared to the documents submitted by the court.
Additionally, the BJA Program Manager will verify and sign off on the
accuracy of each record after the contractor has completed its review. The
contractor is required to track the verification process of each record entered
into the Clearinghouse database, including the date the qualifying case is
received, the date it is reviewed by contractor staff, and the date the BJA
Program Manager verifies the record.

       Individuals’ information entered into the Clearinghouse database is
transmitted to the EPLS monthly, after which the status of an uploaded
submission, meaning whether the submission has been accepted or rejected,
is reported to the contractor. For all rejected submissions, the contractor
manually uploads the records into the EPLS.39 According to the BJA’s DFB
and DPFD Program Procedure Manual, only the cases that have been entered
into the Clearinghouse database since the last e-mailed data transmission
are uploaded to the EPLS. Officials explained that although most individuals’
information is entered into the EPLS in this manner, for the defense-related
cases, staff directly enters an individual’s information into the EPLS within
5 working days of receiving the complete information.

      The contractor is required to verify the accuracy and security of the
data transmissions and, every 6 months, the contractor is required to ensure
the data in the EPLS matches the data in the Clearinghouse database.
According to BJA officials, every few years an audit is performed by the
contractor in which randomly selected EPLS entries are printed and
compared to case information received from the courts or the USAOs. Upon
requesting all audits performed during the scope of our audit, the BJA
informed the OIG that one audit was performed in 2007, but was unable to
locate the documentation of the audit. We were provided the documentation
for an audit that was completed in October 2010.

       The Clearinghouse database and the EPLS are both used by external
users, and as reported previously, ensuring data is accurately and
completely entered into both databases enables the government to prevent
DOD contract funds or federal benefits from being awarded to excluded
individuals.40 To ensure data was consistently entered into the

       39
           If an upload contains records that are not in the correct format, as prescribed by
the GSA, the uploaded information is rejected by the EPLS. The DFB and DPFD Program
Procedural Manual states that the most common reason for rejection is an absence of a
social security number for an individual.
       40
          The Clearinghouse data related to individuals convicted of drug trafficking or
possession is provided directly to the Department of Education, the Federal Communications


                                           - 26 -
Clearinghouse database and the EPLS, we compared the data maintained in
both databases. The results of our comparison follow.

Clearinghouse Entries for DOD Cases

      In order to verify the accuracy and completeness of the Clearinghouse
database entries, we first compared the DOD records of individuals in the
Clearinghouse database listed as currently excluded, as well as inactive
records with debarment start dates between FYs 2005 and 2010, to the
records in the EPLS. Our search was based on the individual’s first, middle,
and last names; the individual’s social security number; EPLS Cause and
Treatment Code; and the dates of the individual’s exclusion. Based on this
extraction there were 107 DOD records. We found that 81 of the 107 DOD
records in the Clearinghouse database matched entries in the EPLS. Of the
remaining 26 records:

      2 had no record in the EPLS;

      1 had a discrepancy between the social security numbers;

      2 had discrepancies between the EPLS Cause and Treatment Codes;

      11 had discrepancies between the exclusion dates;

      7 had discrepancies between the names; and

      3 had discrepancies in multiple fields.41

      Next, since information for individuals convicted of fraud or felony
arising out of a DOD contract is directly entered into the EPLS and the
Clearinghouse database, as shown in Exhibit 3, we also compared the EPLS
records of individuals excluded for fraud or a felony conviction arising out of

Commission, and other providers of federal benefits to help ensure that sanctioned drug
offenders are excluded from receiving benefits. The Clearinghouse responds to inquires
from federal agencies, DOD contractors, and first-tier subcontractors to determine an
individual’s employment or contract eligibility for DOD funding. The EPLS is used by all
federal agencies and the public to determine an individual’s or entity’s eligibility.
       41
           The two DOD cases in the Clearinghouse database that were not in the EPLS are
in addition to the three cases submitted by the USAOs previously identified in this report.
The three cases were entered into the Clearinghouse database as non-qualifying cases and
therefore are not considered Clearinghouse records. The analysis performed in this section
only compared Clearinghouse database records to the EPLS. As a result, the three
previously identified cases were excluded from this analysis based on their coding as
non-qualifying.



                                          - 27 -
a DOD contract where the debarment start date was between FYs 2005 and
2010 to the Clearinghouse database. Our search was based on the
individual’s first, middle, and last names; the individual’s social security
number; EPLS Cause and Treatment Code; and the dates of the individual’s
exclusion. We found 25 of the 107 records contained data discrepancies
between the EPLS and the Clearinghouse database. Of these, 20 records
were previously identified in our comparison of the Clearinghouse records to
the EPLS, 4 had no record in the Clearinghouse database, and 1 had a
discrepancy between the EPLS Cause and Treatment Codes.42

       We provided the BJA with the list of records for which we identified
discrepancies and explained that the analysis was not intended to include all
records with discrepancies since our review was limited to a select number of
fields in the Clearinghouse database and the EPLS. The BJA reviewed the
source documentation for each record and corrected errors as necessary in
either the Clearinghouse database or the EPLS. Additionally, the BJA
informed us that the two cases identified as having no record in the EPLS
were non-qualifying cases. Therefore, they were correctly not entered into
the EPLS. Additionally, two of the four cases in the EPLS with no record in
the Clearinghouse database were entered into the Clearinghouse after our
analysis. The remaining two cases were entered into the EPLS then
subsequently deleted, one because the offender had not yet been sentenced
and the other did not have a reason documented in the file. According to
BJA officials, generally, the discrepancies were caused by data entry errors.
Also, contractor staff informed the OIG that the required semi-annual
reconciliations of data in the Clearinghouse database and the EPLS had not
been performed due to an oversight on their part.

Clearinghouse Entries for Drug Cases

       In order to verify the accuracy and completeness of the Clearinghouse
database entries, we first compared the Clearinghouse database records of
individuals currently excluded for drug trafficking or possession, as well as
inactive records with debarment start dates between FYs 2005 and 2010, to
the records in the EPLS. Our search was based on the individual’s first,
middle, and last names; the individual’s social security number; EPLS Cause
and Treatment Code; and the dates of the individual’s exclusion. We found
that 5,229 of the 5,817 records contained in the Clearinghouse database had
matched entries in the EPLS. Of the remaining 588 records:



      42
         Two of the four DOD records that were in the EPLS but not in the Clearinghouse
database were previously identified in this report.



                                         - 28 -
     212 had no record in the EPLS;

     36 had a discrepancy between the social security numbers;

     11 had discrepancies between the EPLS Cause and Treatment Codes;

     149 had discrepancies between the exclusion dates;

     136 had discrepancies between the names;

     41 had discrepancies in multiple fields; and

     3 appear to be duplicate Clearinghouse database records.

       Next, we compared the EPLS records of individuals excluded from
receiving federal benefits because of a drug trafficking or possession
conviction where the debarment start date was between FYs 2005 and 2010
to the Clearinghouse database. Our search was based on the individual’s
first, middle, and last names; the individual’s social security number; EPLS
Cause and Treatment Code; and the dates of the individual’s exclusion. We
found 335 of the 4,981 records contained data discrepancies between the
EPLS and the Clearinghouse database. Of the 335 records with data
discrepancies, 274 were previously identified in our comparison of the
Clearinghouse database records to the EPLS. Of the 61 remaining records:

     10 had no record in the Clearinghouse;

     16 had a discrepancy between the social security numbers;

     1 had a discrepancy between the EPLS Cause and Treatment Codes;

     5 had discrepancies between the exclusion dates;

     13 had discrepancies between the names;

     3 had discrepancies in multiple fields; and

     13 appear to be duplicate EPLS records.

      We again provided the BJA with a list of all records that contained
discrepancies and explained that the analysis was not intended to include all
records with discrepancies because our review was limited to a select
number of fields in Clearinghouse database and the EPLS. The BJA reviewed
the source documentation for each record and corrected the information as


                                    - 29 -
necessary in either the Clearinghouse database or the EPLS. According to
BJA officials, the majority of discrepancies were caused by data entry errors
as a result of manual entry into the EPLS for those records that were not
automatically transmitted to the EPLS or transmissions to the EPLS being
performed before proofing occurred, after which an error was identified and
corrected in the Clearinghouse database but not in the EPLS. Additional
reasons for discrepancies provided by the BJA were: denial end date
changes due to case rescissions that were updated in the Clearinghouse
database but not the EPLS; duplicate entry of records in the Clearinghouse
database with minor variations; and case amendments that were incorrectly
entered in the Clearinghouse database as a new case. For those records
identified as missing from the Clearinghouse database, the BJA explained
that records were, generally, in the Clearinghouse database, but due to data
entry errors in the name fields, the records were not identified in the OIG’s
analysis. Additionally, for those records identified as missing from the EPLS,
the BJA explained that in many instances, it appeared the data transmission
to the EPLS was not successful. Finally, in some instances a record did exist
in the EPLS, but due to data entry errors in the name fields the records were
not identified in the OIG’s analysis. Contractor staff also informed the OIG
that they did not perform required semi-annual reconciliations of data in the
Clearinghouse database and the EPLS.

Non-qualifying Cases Entered into the EPLS

      Before entering an individual’s information into the Clearinghouse
database, the documents are reviewed to verify that the case qualifies for
statutory debarment pursuant to 10 U.S.C. § 2408 or 21 U.S.C. § 862.
Contractor staff, however, do not have the authority to make legal decisions
regarding the qualification of individuals for debarment and rely on the
prosecutor to determine an individual’s eligibility for debarment under
10 U.S.C. § 2048. However, if the case is determined to be non-qualifying
under either 10 U.S.C. § 2408 or 21 U.S.C. § 862, it is entered into the
Clearinghouse database as a non-qualifying case. This entry is made so the
BJA can maintain a record of the case being submitted, although it does not
qualify for exclusion.

      From the universe of 14,792 records in the Clearinghouse database as
of October 15, 2010, we compared the 177 records designated as
non-qualifying in the Clearinghouse database to the EPLS. Our comparison
was based on an individual’s first and last name and social security number.
We identified 32 records designated as non-qualifying that were entered into
the EPLS, meaning these eligible individuals were potentially inappropriately
denied federal benefits. We provided the listing of cases to the BJA and
were informed that:


                                    - 30 -
   	 21 cases were non-qualifying cases that had been incorrectly added to
      the EPLS;

   	 6 records had been inappropriately designated as non-qualifying cases
      in the Clearinghouse database; and

   	 5 records had a duplicate record in the Clearinghouse database, which
      was qualifying and matched the EPLS record.

       The BJA removed all non-qualifying records for all currently excluded
individuals from the EPLS, and corrected each record inappropriately
designated as non-qualifying in the Clearinghouse database. According to
BJA officials, generally, the entries were caused by an incorrect active status
in Clearinghouse database, which led to the individuals being incorrectly
added to the EPLS. Also, contractor staff informed the OIG that the required
semi-annual reconciliations of data in the Clearinghouse database and the
EPLS had not been performed due to an oversight on their part.

Clearinghouse Records Compared to Source Documentation

       We performed a preliminary risk analysis of the reliability of data
contained in the EPLS. In February 2009, the Government Accountability
Office (GAO) released a report in which it assessed the reliability of the data
within the EPLS.43 In its report, the GAO assessed the reliability of the EPLS
data and found the data to be insufficiently reliable for determining how
many excluded parties received new federal awards during their period of
exclusion because of the number of missing entries in certain data fields and
the lack of a historical archive as a result of record modifications. In
addition to a review of the GAO report, we performed limited tests on a
judgmentally selected sample of EPLS records. Criteria for our judgmental
sample included records without obvious data discrepancies, anomalies
identified within the database, and potentially duplicative entries. Based on
the analysis, we determined that the risk level for the accuracy and
completeness of the data is very high and that the data contained in the
EPLS is not sufficiently reliable for our audit work. Since the BJA also
maintains the Clearinghouse database for upload into the EPLS system, we
requested the complete database from the BJA in order to determine if that
data was more reliable than the EPLS. We then selected a sample of


      43
          U.S. Government Accountability Office, Excluded Parties List System; Suspended
and Debarred Businesses and Individuals Improperly Receive Federal Funds, GAO-09-174
(February 2009), 26-27.



                                         - 31 -
Clearinghouse database records to test in order to verify if the cases had
been completely and accurately entered.

       We reviewed the source documentation for the sample of cases from
the Clearinghouse database to verify if the cases had been completely and
accurately entered. The universe for the review consisted of 5,690 records
of cases, both active and inactive, with either entry date or denial start date
between October 1, 2004, and October 15, 2010. The sample design
consisted of selecting two samples. The first sample of 72 cases was a
judgmental sample of records selected based on anomalies identified within
the database, such as invalid dates, to verify the accuracy of the identified
anomalies. The second sample was a stratified sample totaling 232 records
statistically selected from the sample universe of 5,618 records to
statistically project the error rates for the data fields within the
Clearinghouse database that were tested.44

      From the statistically selected sample of 232 cases, the BJA could not
provide supporting documentation for 8 cases for our review.45 Of the
remaining 224 cases, we compared the data entered into the Clearinghouse
database to the source documentation to determine whether each case’s
data was completely and accurately entered into the Clearinghouse
database.

       Despite the verification process performed by the BJA and the
contractor on each case, we found errors in the following fields: last name,
first name, middle name, Social Security number, address, denial start date,
denial end date, and the EPLS Cause and Treatment Code. The results of
our review of a statistical sample of 232 cases were analyzed and an
estimated exception rate and 95 percent confidence interval was calculated
for each field tested.46 The results are shown in Exhibit 3 below:

       44
          Appendix I provides a more detailed description of our sampling methodology and
discussion of the judgmentally selected sample.
       45
           BJA policy requires all records be maintained in both paper and electronic format
at the contractor’s facility for a period of 100 years. We asked BJA officials why they were
unable to locate the source documentation and were informed that during the transition to
the current contractor from the previous support contractor, the former Clearinghouse
Program Manager directed the new contractor to destroy all expired drug cases.
Additionally, the contractor was unable to locate the scanned files for these records.
       46
           According to BJA officials, they are currently in the process of completing a new
web-based system to replace the current Clearinghouse database, to help improve the
efficiency of the process by which excluded individuals are communicated to the EPLS.
However, since the system was not complete at the time of the audit, we did not perform an
evaluation of the system.



                                           - 32 -
  EXHIBIT 3: ESTIMATED EXCEPTION RATE FOR THE STATISTICAL 

    SAMPLE OF EACH FIELD IN THE CLEARINGHOUSE DATABASE

                                                  95% CONFIDENCE INTERVAL LIMITS
                                                   OF ESTIMATED EXCEPTION RATES
                          ESTIMATED EXCEPTION
      TESTED VARIABLE            RATE                 LOWER              UPPER
          LNAME                 4.72%                 2.05%              7.40%
          FNAME                 5.15%                 2.39%              7.92%
          MNAME                 4.29%                 1.75%              6.83%
            SSN                 3.87%                 1.44%              6.30%
            ADDRESS              7.31%                4.03%             10.60%
            COUNTRY              3.87%                1.44%             6.30%
              CITY               4.72%                2.06%             7.38%
               ST                4.73%                2.04%             7.42%
              ZIP                5.16%                2.37%             7.96%
           DEN START             4.30%                1.73%              6.87%
            DEN END              6.03%                3.02%              9.04%
           EPLS CODE             3.87%                1.43%              6.31%
    Source: OIG Office of Advanced Audit Techniques

      We informed BJA officials and the contractor that we had identified an
exception rate of approximately 5 percent for each data field in Exhibit 3 and
asked why this occurred despite the verification of data performed by the
contractor and the BJA Program Manager. Both the contractor and the BJA
were surprised to hear that errors were still present despite the quality
control processes in place. In 2009, the BJA Program Manager noticed an
increase in errors and discussed the increase with the contractor. The BJA
and the contractor both stated their opinions that the exception rate has
since decreased. Because the statistical sample was based on 2-year strata,
for active and inactive cases, we analyzed the exception rate for each 2-year
period to verify whether the exception rate had decreased.47




      47
         The observed exception rate from our case review was calculated by dividing the
number of records with at least one exception by the total number of cases reviewed in
each 2-year period.



                                         - 33 -
                   EXHIBIT 4: EXCEPTION RATE OF EACH 

               STRATA FOR ACTIVE AND INACTIVE CASES IN THE

                        CLEARINGHOUSE DATABASE

                                               SAMPLE     AT LEAST ONE     EXCEPTION
     STRATUM OF ACTIVE AND INACTIVE CASES       SIZE       EXCEPTION         RATE
       Active and Inactive FY 05 and FY 06         52           7              13%
       Active and Inactive FY 07 and FY 08         80           6              8%
       Active and Inactive FY 09 and FY 10         100         12              12%
   Source: OIG Office of Advanced Audit Techniques

      As shown in Exhibit 4, the exception rate did not show a specific
pattern of decreasing error rates. Additionally, we computed an estimate of
the exception rate of records with at least one error in the tested data fields
and projected the number of exceptions to the sample universe of
5,618 records at 95 percent confidence. This calculation resulted in an
estimated exception rate of 10.76 percent. Based on this projection, we
estimate that 604 records out of the universe of 5,618 would contain at least
one error.48

       We also reviewed the Clearinghouse database case numbering system,
which sequentially assigns a case identification number to each case
received by the Clearinghouse. If a defendant has a subsequent offense, he
or she is assigned a new case identification number. We identified
85 instances where the sequential case identification numbering skipped one
or more numbers. A total of 118 numbers were missing from the sequential
case identification system. When we asked BJA officials about the gaps in
the case identification numbers, they informed us that if they need to abort
the entry of a case after hitting the <save> button, the sequence case
identification number would already have been generated. Therefore
deleting a case creates a gap in the sequential case identification numbers.
Also, the system does not allow changing the status to or from
non-qualifying, so if a case is incorrectly entered, the record must be deleted
or a new case is entered creating a duplicate record.

      As of October 15, 2010, the number of records contained in the
Clearinghouse database exceeded the number of DOJ records reported in the
EPLS by 3,238.49 As previously described, the Clearinghouse database
       48
          As of October 15, 2010, the Clearinghouse database contained a total of 14,792
records. Of those, 5,690 records fell within the scope of our audit. The 5,618 records were
used as the sample frame universe for selecting statistical sample and the 72 records were
judgmentally selected.
       49
          As of October 15, 2010, the EPLS contained 11,554 records, and the
Clearinghouse database contained 14,792 records.


                                          - 34 -
tracks non-qualifying cases but does not report them to the EPLS, which
would explain a portion of this discrepancy. As of October 15, 2010, the
Clearinghouse database contained 177 non-qualifying records. Since not all
non-qualifying cases were entered into the EPLS, the non-qualifying cases
stored only in the Clearinghouse database would cause the total number of
records in the Clearinghouse database to be higher when compared to the
EPLS.

      Also, during our review of source documentation, we found two
instances where it appeared as though an original record was overwritten
with a new case. BJA officials informed us that, in one case, it appeared that
the original record was updated with information from the individual’s new
conviction, rather than entering a new record. In the other case, it
appeared that the original record had been overwritten with new case
information. The BJA and the contractor do not appear to be consistently
following the case identification number assignment policy, which has
resulted in the destruction of historic records. As a result, records that are
overwritten in the Clearinghouse database would cause the number of
records stored in the Clearinghouse database to be lower when compared to
the number of records in the EPLS.

      While we were able to identify two causes that partially explain the
discrepancy between the total records contained in the Clearinghouse
database and the records in the EPLS, the Clearinghouse database does not
contain a unique identifier common to both databases. Because of this, we
were unable to identify a comprehensive listing of specific records that made
up the discrepancy between the total number of records in the
Clearinghouse database and the EPLS. Without such a listing, we were
unable to determine the total number of discrepancies.

Conclusion

      As of October 15, 2010, the number of records contained in the
Clearinghouse database exceeded the number of DOJ records reported in the
EPLS by 3,238. Based on the overall number of records in the databases as
well as our comparison of Clearinghouse database records to the EPLS
records, there appears to be discrepancies between the records contained in
the databases. Since we did not compare these records to source
documentation, we were unable to determine which record, if either, was
accurate. However, because the Clearinghouse database and the EPLS serve
the same purpose for different users, the records in the Clearinghouse
database should agree with those records in the EPLS to ensure consistency
across all federal agencies.



                                    - 35 -
      In addition, the records in the Clearinghouse database and the EPLS
must be accurate to ensure that contracts and benefits are not awarded to
excluded parties. Yet after reviewing the source documentation of a sample
of Clearinghouse database records, we found that approximately 11 percent
of the Clearinghouse database records contain at least one error in at least
one data field. The inaccurate records in the Clearinghouse database are
then transmitted to the EPLS, creating the potential for inaccuracies in both
databases.

      It also appears that the contractor is not adequately performing the
duties required under the contract. Specifically, we found that contractor is:

   	 not ensuring the data in the EPLS matches the data in the 

      Clearinghouse database; 


   	 uploading non-qualifying cases to the EPLS; and

   	 not ensuring the accuracy of the data entered into the Clearinghouse
      database.

       Furthermore, we found that the BJA Program Manager is not
sufficiently reviewing, verifying, and signing off on the accuracy of records
that have been entered into the Clearinghouse database or providing
adequate oversight of the contractor to ensure compliance with the contract
requirements. Inaccurate or incomplete reporting creates the potential for
users of the Clearinghouse database and the EPLS to inadvertently make
improper awards of DOD contract funds or federal benefits to ineligible
individuals.

Recommendations

We recommend that the BJA:

   13. Immediately enter missing records into the Clearinghouse database
       and the EPLS, and correct any errors in data already stored in the
       EPLS.

   14. Immediately remove non-qualifying records from the EPLS.

   15. Enhance policies and procedures to ensure that all records in the
       Clearinghouse and the EPLS are complete, accurate, and properly
       communicated to other agencies.




                                    - 36 -
16. Improve quality controls of the Clearinghouse database to reduce
    future data entry inaccuracies.

17. Ensure it is adequately monitoring Clearinghouse contractors and
    staff, including more frequent data checks and evaluations of
    contractor performance.




                               - 37 -
IV. TIMELINESS OF ENTRY OF DATA INTO THE EPLS

          For the Clearinghouse database and the EPLS to be effective in
          providing information regarding excluded individuals who should
          not receive DOD contract funding or other federal benefits, these
          exclusions must be communicated timely to the user
          communities. Although timeliness of entry into the EPLS is not
          defined under 10 U.S.C. § 2408 or 21 U.S.C. § 862, according to
          BJA policy, qualifying DOD cases are requested quarterly from
          the USAOs and manually entered into the Clearinghouse
          database and the EPLS within 5 working days of the receipt of a
          complete case file. Data for drug cases are entered into the
          Clearinghouse database by the contractor within 5 working days
          of the BJA receiving a case file and then transmitted to the GSA
          for inclusion in the EPLS on a monthly basis. During our audit,
          we found that, generally, cases were not entered into the
          Clearinghouse database within the time required by BJA policy,
          indicating a lack of oversight of the contractor by the BJA and
          breakdowns in the internal controls intended to ensure
          compliance with BJA policy.

BJA Policy for Timely Entry of Cases into the EPLS

      Although 10 U.S.C. § 2408 and 21 U.S.C. § 862 do not contain criteria
that address the timeliness of entry into the EPLS, the BJA has established a
policy for qualifying DOD cases and drug cases. For DOD cases, the BJA
stated that qualifying cases are requested from the USAOs quarterly,
although the USAOs can also submit qualifying cases to the Clearinghouse
once a conviction is received rather than waiting for the BJA’s quarterly
request. The contractor collects any qualifying cases that are mailed to the
BJA on a weekly basis.50 After reviewing the documentation, if the
information provided is complete and accurate, the contractor staff manually
enters the case into the Clearinghouse database and the EPLS within
5 working days of the receipt of a complete case file. If the case is received
within 5 working days of the monthly upload performed for drug cases, the
contractor will enter the case into the Clearinghouse database first, which is
uploaded automatically to the EPLS.

      For drug cases, the BJA receives a judgment from a state, local, or
federal court informing it that an individual has been statutorily debarred.
The court forwards the BJA the judgment and the contractor collects the

          50
               Qualifying cases may also be submitted directly to the contractor by fax, mail, or
e-mail.


                                                - 38 -
judgments from the BJA weekly. After reviewing the documentation for
eligibility and completeness, the contractor enters the data into the
Clearinghouse database within 5 working days of receipt. Monthly, the
Clearinghouse database is uploaded to the EPLS system. This policy was
adopted when the EPLS was still paper-based and published monthly for
external users. Following the submission to the EPLS system, the status of
an upload submission, whether the submission has been accepted or
rejected, is reported to contractor. For all rejected submissions, the
contractor will manually upload the profiles into the EPLS.

DOD Cases

      Both the Clearinghouse database and the EPLS automatically generate
a date stamp when the record is entered. To determine the length of time it
took the BJA to upload cases entered into the Clearinghouse database to the
EPLS, we compared the entry dates from both databases. Our analysis was
limited to the records in the Clearinghouse database that had a matching
record in the EPLS, which were identified previously.51 Of the 105 cases in
the Clearinghouse database with a record in the EPLS, 102 cases were
entered into the Clearinghouse database first and then into the EPLS. Of the
3 cases entered into the EPLS first, one case was entered into the
Clearinghouse database 4 working days after it was entered into the EPLS,
one was entered 218 working days later, and one was entered 459 working
days later. For the remaining 102 cases, it took between 1 and 787 working
days for the BJA to enter the record into the EPLS from the Clearinghouse.52
We found that only 39 percent of the DOD cases entered into the
Clearinghouse database had been uploaded to the EPLS within the BJA’s
5 working day requirement. Exhibit 5 provides a breakdown of the number
of working days from entry of a case into the Clearinghouse database until
entry into the EPLS. On average, it took 38 working days to enter a case
from the Clearinghouse database into the EPLS.




      51
          Of the 107 total DOD records in the Clearinghouse database, 81 had previously
been matched to the records in the EPLS using commercially available relational database
software, and 2 records had never been entered into the EPLS. The remaining 26 records
contained errors that prevented an exact match using the relational database software and
were therefore manually matched in our analysis of timeliness.
      52
           The calculation was based on the number of working days between two dates.



                                         - 39 -
          EXHIBIT 5: WORKDAYS BETWEEN ENTRY INTO

    THE CLEARINGHOUSE DATABASE AND THE EPLS (DOD CASES)



  Entered After 60 Days            9




    Entered Between 31
                              2
       and 60 Days



 Entered Between 6 and
                                                                      53
        30 Days




  Entered Within 5 Days                                   38




  Records In EPLS First
                              3
    (Negative Days)


                          0       10     20      30       40     50        60

                                          Number of Records
  Source: BJA

       Although the BJA does not record the date a court order is received in
the Clearinghouse database, the contractor is required to track the
verification process of each record entered into the Clearinghouse database,
including the date the case is received. During our review of the case files
for our total sample of 304 Clearinghouse database records, we recorded the
date from the handwritten stamp used to record when a case was received.
Nine of the cases in the sample were DOD cases. For these nine cases, we
reviewed the date stamp to determine if these individuals’ information was
entered into the EPLS within 5 working days of receipt, in accordance with
BJA’s policy. Of the nine DOD records, three were not stamped as received
and one could not be located for us to review. Therefore, we were unable to
calculate the time it took for cases to be entered into the EPLS after receipt
for these four records. Of the remaining five records with a date stamp, only
one was entered within 5 working days of receipt. The other four cases
were entered between 7 and 11 working days.

      We also compared the exclusion start date to the EPLS entry date to
see how long it took for cases to be entered into the EPLS after debarment


                                       - 40 -
has been imposed. We found that for qualifying DOD cases it took between
17 days and 1,251 days after the debarment start date for cases to be
communicated to the EPLS.53 On average it took 211 days or 7 months from
the debarment start date to enter DOD cases into the EPLS.

Drug Cases

       To determine if drug cases were entered into the EPLS from the
Clearinghouse database within 30 days, in accordance with the BJA’s policy
to upload to the EPLS on a monthly basis, we calculated the length of time it
took the BJA to upload cases entered into the Clearinghouse database to the
EPLS by comparing the entry dates from both databases. BJA officials
informed us the EPLS system was updated in 2005. As a result, on
April 7, 2005, all DOJ records related to statutory debarments were reloaded
into the EPLS system from the Clearinghouse database. We determined that
reviewing the time that elapsed before entry into the EPLS for any records
with an entry date in the EPLS of April 7, 2005, would not provide an
accurate assessment of timeliness. Therefore, our review consisted of all
drug cases with a record in the EPLS that matched the Clearinghouse
database on first, middle, last name; social security number; EPLS Cause
and Treatment Code; and exclusion start and end dates, excluding those
records with an entry date of April 7, 2005. Of the 4,920 records in the
Clearinghouse database with a record in the EPLS, 22 records were entered
into the EPLS first and then into the Clearinghouse database.54 For the
remaining 4,898 it took between 1 and 5,968 days for the BJA to enter the
record into the EPLS.55 On average, it took 158 days or 5 months for cases
to be entered into the EPLS from the Clearinghouse database. Exhibit 6
shows that 3,284 of the 4,898 records (67 percent) were entered into the
EPLS within 30 days, per BJA’s policy.




       53
            The calculation was based on a 360-day year, 30 days per month.
       54
           We identified 5,229 drug records in the Clearinghouse database with a match in
the EPLS. The contractor entered 309 of those records into the EPLS on April 7, 2005,
leaving a total of 4,920 drug records in the Clearinghouse database that were used in our
analysis of timeliness.
       55
            The calculation was based on a 360-day year, 30 days per month.



                                           - 41 -
             EXHIBIT 6: DAYS BETWEEN ENTRY INTO 

    THE CLEARINGHOUSE DATABASE AND THE EPLS (DRUG CASES)



     Entered After 90 Days                        1056



   Entered Between 61 and
                                  48
           90 Days



   Entered Between 31 and
                                         510
           60 Days




    Entered Within 30 Days                                                           3284



      Records In EPLS First
                                  22
        (Negative Days)


                              0        500     1000     1500   2000   2500   3000    3500

                                                  Number of Records
   Source: BJA

       We also compared the exclusion start date to the EPLS entry date to
determine how long it took for drug cases to be communicated to the EPLS
after debarment had been imposed, and found that it took between 3 and
5,975 days after the debarment start date for cases to be entered into the
EPLS.56 On average it took 309 days or 10 months from the debarment
start date to entry into the EPLS.

Receipt of Case File to Entry into the Clearinghouse Database

      For DOD cases and drug cases, BJA policy requires the contractor to
enter the record into the Clearinghouse database within 5 working days of
receiving the case file. The contractor informed us that they can enter a
case into the Clearinghouse database with less information than is required
for entry into the EPLS. Therefore, contractor staff will enter incomplete
cases into the Clearinghouse database while waiting for missing information

       56
          Two of the 4,920 records did not have a valid start date, therefore this analysis
was performed on 4,918 records. The calculation was based on a 360-day year, 30 days
per month.



                                               - 42 -
for entry into the EPLS. As previously explained, during our review of the
case files for our total selected sample of 304 Clearinghouse database
records, we recorded the date the case was received by the BJA. In order to
determine the length of time it took the BJA to enter the data into the
Clearinghouse database after receiving a qualifying case, we compared the
date received stamped on the source documentation to the Clearinghouse
database entry date. Supporting documentation for 12 of the 304 cases
could not be located for our review and 78 cases did not have the date
received documented; therefore, our analysis of timeliness was based on the
remaining 214 cases.

            EXHIBIT 7: WORKDAYS BETWEEN DATE RECEIVED

            AND ENTRY INTO THE CLEARINGHOUSE DATABASE 


    Records Entered After 90
                                                             46
             days


 Records Entered Between 61
                                             20
        and 90 Days


 Records Entered Between 31
                                                            44
        and 60 Days


  Records Entered Between 6
                                                                       67
         and 30 Days


    Records Entered Within 5
                                                  31
             days


    Records Entered Before
                                   6
   Received (Negative Days)

          No Supporting
      Documentation or Date                                                      90
             Stamp

                               0        20             40         60        80        100

                                                  Number of Records
 Source: BJA

      We found that only 17 percent of the cases reviewed had been entered
into the Clearinghouse database within 5 working days of receipt by the BJA.
Six of these cases were entered into the Clearinghouse database before they
were received. These appear to be instances in which an old case was
overridden with new case information.57 Exhibit 7 provides a breakdown of
      57
           The BJA confirmed that one of the six records had been overridden.


                                             - 43 -
the number of working days from receipt of a case by the BJA until entry
into the Clearinghouse database. Excluding the negative entry dates, it took
the BJA, an average of 122 working days to enter a record into the
Clearinghouse database after receiving a case from the court or DOJ
litigating division.

Conclusion

       Based on our review, it appears that individuals excluded under
10 U.S.C. § 2408 or 21 U.S.C. § 862 are, generally, not timely
communicated to the Clearinghouse database or the EPLS, creating the
potential for government agencies, contractors, and first-tier subcontractors
to unknowingly award DOD contract funds or federal benefits to excluded
individuals. Delays in communication appear to be caused by lack of
compliance with the BJA’s policies; breakdowns in the communication
between the BJA and submitting court or DOJ litigating division to obtain
missing information for entry into the EPLS; and a lag from when a
conviction is received for DOD cases or debarment imposed by a judge for
drug cases to when the case is forwarded to the BJA for inclusion in the
Clearinghouse database and the EPLS.58

Recommendations

We recommend that the Criminal Division, the Antitrust Division, and the
USAOs:

   18. Develop and implement a system to ensure qualifying DOD cases are
       submitted timely to the BJA with all required information for entry
       into the Clearinghouse database and the EPLS.

We recommend that the BJA:

   19. Update current policy to reflect modern capabilities of the EPLS 

       system. 


   20. Enhance policies and procedures to ensure that all records are
       communicated to the Department of Education, the Federal
       Communications Commission, and the EPLS in a timely manner.

       58
          According to BJA officials, they are currently in the process of completing a new
web-based system to replace the current Clearinghouse database. This system is designed
to help improve the efficiency of the process by which excluded individuals are
communicated to the EPLS. However, since the system was not complete at the time of the
audit, we did not perform an evaluation of the system.



                                          - 44 -
21. Ensure it is adequately monitoring Clearinghouse contractors and
    staff to include more frequent evaluations of the timeliness of entry
    of individuals’ information into the Clearinghouse database and the
    EPLS.




                                 - 45 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Department of Justice’s (DOJ)
internal controls was not made for the purpose of providing assurance on its
internal control structure as a whole. Each DOJ component’s management is
responsible for the establishment and maintenance of internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies in the U.S. Attorneys’ Offices (USAOs) internal
controls that are significant within the context of the audit objectives and,
based upon the audit work performed, that we believe adversely affect the
USAO’s ability to track and report qualifying convictions pursuant to
10 U.S.C. § 2408. During our audit we found that several USAOs were
unaware of their obligations to report qualifying convictions pursuant to
10 U.S.C. § 2408, and as a result did not have any policies or procedures in
place to track and report qualifying cases. In addition, the current
information system utilized by the USAOs does not have the capability to
provide complete and accurate information necessary to meet the
requirements of 10 U.S.C. § 2408.

      We also identified deficiencies in the Antitrust Division’s internal
controls that are significant within the context of the audit objective and,
based upon the audit work performed, that we believe adversely affect the
Antitrust Division’s ability to track and report qualifying convictions pursuant
to 10 U.S.C. § 2408. During our audit we found that the Antitrust Division
mistakenly believed that the subsequent administrative debarment and
reporting of their cases by DOD components to the EPLS fulfilled statutory
debarment reporting requirements pursuant to 10 U.S.C. § 2408, and as a
result did not have adequate policies or procedures in place to track and
report qualifying cases.

      We also identified deficiencies in the Criminal Division Fraud Section’s
internal controls that are significant within the context of the audit objective
and, based upon the audit work performed, that we believe adversely affect
Criminal Division’s ability to track and report qualifying convictions pursuant
to 10 U.S.C. § 2408. During our audit we identified several qualifying cases
pursuant to 10 U.S.C. § 2408 that were not reported to the Bureau of Justice

                                     - 46 -
Assistance (BJA) for inclusion in the Excluded Parties Listing System (EPLS).
According to Criminal Division officials, the discrepancy between cases
qualifying for debarment and those reported was a result of two different
individuals’ interpretation of 10 U.S.C. § 2408. Because the controls in place
do not allow management or staff to prevent or detect misstatement of
qualifying cases, we identified this as a significant deficiency in the design of
this control.

      We also identified deficiencies in the Criminal Division Public Integrity
Section’s internal controls that are significant within the context of the audit
objective and, based upon the audit work performed, that we believe
adversely affect Criminal Division’s ability to track and report qualifying
convictions pursuant to 10 U.S.C. § 2408. During our audit we found that
the Public Integrity Section was unaware of their obligations to report
qualifying convictions pursuant to 10 U.S.C. § 2408, and as a result did not
have any policies or procedures in place to track and report qualifying cases.

       We also identified deficiencies in the BJA’s internal controls that are
significant within the context of the audit objective and, based upon the
audit work performed, that we believe adversely affect the BJA’s ability to
accurately and completely inform stakeholders of ineligible parties through
the Clearinghouse Database and the EPLS pursuant to 10 U.S.C. § 2408 and
21 U.S.C. § 862. During our audit we identified several errors and omissions
in the data reported by DOJ in the Clearinghouse database and the EPLS.
The design of internal controls related to completeness of the reporting by
the BJA requires that outreach is done to ensure all qualifying cases are
received and reported by the BJA. The design of internal controls related to
accuracy requires ongoing data checks and data audits performed by
contract staff and BJA Program Managers to ensure the completeness and
accuracy of each record. However, because the controls in place do not
allow management or staff to prevent or detect misstatement of qualifying
cases, we identified this as a significant deficiency in the operation of these
controls.

       Because we are not expressing an opinion on the DOJ’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                     - 47 -
        STATEMENT ON COMPLIANCE WITH LAWS AND 

                     REGULATIONS 


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
DOJ’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. DOJ’s management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified
the following laws and regulations that concerned the operations of the
auditee and that were significant within the context of the audit objectives:

     	 10 U.S.C. § 2408 – Prohibition on persons convicted of
        defense-contract related felonies and related criminal penalty on
        defense contractors, and

     	 21 U.S.C. § 862 – Denial of federal benefits to drug traffickers and
        possessors.

      Our audit included examining, on a test basis, DOJ’s compliance with
the aforementioned laws and regulations that could have a material effect on
DOJ’s operations, through interviewing auditee personnel, analyzing data,
and assessing internal control procedures.

      As noted in the Findings and Recommendations section of this report,
we found that DOJ did not fully comply with requirements of
10 U.S.C. § 2408. Specifically, DOJ failed to report all individuals convicted
of fraud or any felony in association with a Department of Defense contract
to the EPLS for the mandatory 5-year debarment specified by the statute.




                                    - 48 -
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of this audit were to: (1) determine the extent that
cases qualifying for statutory debarment are reported for inclusion in the
EPLS by the DOJ litigating divisions, (2) determine the completeness and
accuracy of records entered into the EPLS for statutory debarment actions
maintained by the Department, and (3) determine the timeliness of
reporting statutory debarment actions to the EPLS.

Scope and Methodology Section

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit generally covered, but was not limited to, fiscal years
(FY) 2005 through 2010, and included four DOJ components: (1) the BJA,
within the Office of Justice Programs; (2) the USAOs; (3) the Criminal
Division; and (4) the Antitrust Division. There are seven DOJ litigating
divisions: the USAOs, Criminal Division, Civil Division, Civil Rights Division,
Antitrust Division, Tax Division, and Environmental and Natural Resources
Division. In addition to the divisions stated above where we performed audit
work, we also initially selected the Civil Division. During preliminary audit
work, however, Civil Division officials confirmed that it has litigated cases
involving DOD contracts, but because 10 U.S.C. § 2408 does not apply to
civil cases, the Civil Division was subsequently omitted from the scope of our
audit.

      Our analyses used a data download of the Clearinghouse database
from the BJA as of October 15, 2010, and a data download of DOJ records
contained in the EPLS from the GSA as of January 19, 2011.




                                    - 49 -
Qualifying Cases Not Consistently Submitted to the BJA

      From the Executive Office for U.S. Attorneys (EOUSA), Criminal
Division, and Antitrust Division, we requested a complete list of all cases
that resulted in a conviction for fraud or any felony conviction in connection
with Department of Defense contracts for FYs 2005 through 2010. The
Criminal Division and Antitrust Division provided the requested list of cases.
However, EOUSA informed us that USAO case information is tracked within
the U.S. Attorneys’ case management system, the Legal Information Office
Network System (LIONS), which does not have the capability to identify a
funding source in connection with a conviction. Therefore, EOUSA was not
able to provide a comprehensive listing of cases qualifying for statutory
debarment pursuant to 10 U.S.C. § 2408.

Criminal and Antitrust Divisions

      Using the data provided by the Criminal and Antitrust Divisions on
cases qualifying for debarment pursuant to 10 U.S.C. § 2408, we manually
searched in the EPLS using the online search function of the EPLS provided
by the General Services Administration (GSA) using the first and last names
of the list of individuals. We also conducted interviews with officials from the
Criminal and Antitrust Divisions about existing policies and procedures to
track and report cases qualifying for debarment pursuant to
10 U.S.C. § 2408.

U.S. Attorneys’ Offices

      To evaluate the extent that cases qualifying for statutory debarment
are reported for inclusion in the EPLS by the USAOs, we judgmentally
selected five USAOs for a review of case files. USAOs were selected based
upon the number of drug and DOD related conviction within each district and
imposition of the Denial of Federal Benefits by courts within the districts.
We selected the USAOs for the districts of Colorado, Kansas, Arizona,
Eastern Virginia, and Southern California. For each of the five districts
selected, EOUSA provided a data file of all cases listing the Department of
Defense as the referring agency where the defendant was found guilty of at
least one charge. From this list, we judgmentally selected a sample of cases
where the lead charge, program category, and comment field appeared to be
a conviction for fraud or any felony in association with a Department of
Defense contract. We tested internal controls related to the identification
and reporting of qualifying cases pursuant to 10 U.S.C. § 2408 by the
USAOs. The test was not designed to provide a comprehensive list of all
cases qualifying for debarment pursuant to 10 U.S.C. § 2408. We did not
verify the validity of the data reported by LIONS, nor did we rely on this


                                     - 50 -
computer-generated data as the basis of our findings. In addition to our
review of case files, we interviewed officials at each USAO selected about
policies and procedures in place to track and report cases qualifying for
debarment pursuant to 10 U.S.C. § 2408.

Drug Cases

       Because state and federal courts are not within the purview of the
OIG, we did not have access to a comprehensive list of cases where a judge
imposed the denial of federal benefits pursuant to 21 U.S.C. § 862.
Additionally, LIONS did not have a designation built into the system to
identify such cases from drug convictions obtained by the USAOs. To
identify cases where a judge imposed the denial of federal benefits, we
chose a random sample of 100 drug cases from USAOs for the districts of
Colorado, Kansas, Arizona, and Southern California.71 For each of the cases
selected in our sample we reviewed the judgment and commitment orders to
identify cases where the judge had imposed the denial of federal benefits.
Those cases were then cross referenced to the Clearinghouse database and
the EPLS to identify any cases that qualified for debarment pursuant to
21 U.S.C. § 862 but had not been entered.

Submissions Not Entered into the Clearinghouse Database or
the EPLS

       We requested the submissions to the Clearinghouse from all USAOs for
FYs 2005 through 2010. While compiling the requested data, we were
informed by EOUSA officials that several USAOs had never been informed of
the reporting requirement, and therefore had not submitted any qualifying
cases. We were also informed that seven districts had submitted cases but
did not retain the documentation. As such, we could not obtain a complete
listing of submissions by the USAOs to the Clearinghouse. However, despite
this data limitation, we were provided what documentation was available.
Because this was the only source for the data submitted by the USAOs, the
data was used in our analysis. The list of cases provided by the USAOs as
well as all DOJ litigating component submissions to the BJA were compared
to the data in the Clearinghouse database and to the DOJ records in the



       71
           For the district of Colorado, a total sample size of 100 cases was selected,
including 84 drug cases. However, because judgment and commitment orders were readily
available for drug cases, our sample size was subsequently increased to 100 drug cases for
the remaining districts. The District of Eastern Virginia was omitted from our analysis of
cases qualifying for debarment pursuant to 21 U.S.C. § 862 due to the high number of
defense-related cases within that district.



                                          - 51 -
EPLS by matching records to first name and last name using commercially
available relational database software.

Data Discrepancies Between the Clearinghouse and the EPLS

       The Clearinghouse database and the EPLS were compared to each
other using commercially available relational database software to identify
any discrepancies between the two databases. Our search was conducted
by matching the individual’s first, middle, and last names; the individual’s
social security number; EPLS Cause and Treatment Code; and the dates of
the individual’s exclusion.

      This analysis identified records that contained differences in the data
housed in the Clearinghouse database as compared to the EPLS, but was not
designed to identify all records containing data errors. This comparison
would not, nor was it designed to, identify records that matched within the
Clearinghouse database and the EPLS but did not accurately report
information from the original source documentation.

       We performed a preliminary risk analysis of the reliability of data
contained in the EPLS. In February 2009, the Government Accountability
Office (GAO) released a report in which it assessed the reliability of the data
within the EPLS.72 In its report, the GAO assessed the reliability of the EPLS
data and found the data to be insufficiently reliable for determining how
many excluded parties received new federal awards during their period of
exclusion because of the number of missing entries in certain data fields and
the lack of an historical archive as a result of record modifications. In
addition to a review of the GAO report, we performed limited tests on a
judgmentally selected sample of EPLS records. Records were chosen based
on anomalies identified within the database such as duplicate records or
invalid date values. Based on the analysis, we determined that the risk level
for the accuracy and completeness of the data is very high and that the data
contained in the EPLS is not sufficiently reliable for our audit work. Because
the BJA maintains the Clearinghouse database for upload into the EPLS
system, we performed all testing of the accuracy of records on the
Clearinghouse database. In order to assess the accuracy of information
contained within the Clearinghouse database we selected a sample of cases
to compare to source documentation.



      72
          U.S. Government Accountability Office, Excluded Parties List System; Suspended
and Debarred Businesses and Individuals Improperly Receive Federal Funds, GAO-09-174
(February 2009), 26-27.



                                         - 52 -
       The universe for the sample design consisted of 5,690 cases, both
active and inactive, with either entry date or denial start date between
October 1, 2004, and October 15, 2010. The sample design consisted of
selecting two samples. The first sample of 72 cases was an
information-based, judgmental sample. The second sample was a stratified
statistical sample.

       The judgmentally selected cases were selected after information based
analysis and comparisons were performed on the records in the universe to
identify those that contained one or more of the eight types of anomalies
that were present in the records. The eight anomalies identified were:

         1. Cases with invalid data value of start and end date of denial;

         2. Cases that were inactive, but had a denial end date after the
            download date of October 15, 2010;

         3. Cases where the entry date in the database was after the denial
            end date;

         4. Cases where the denial start and end dates were the same;

         5. Cases where the entry date was before the denial start date;

         6. Cases where the entry date was after the denial start date by
            more than 2,000 days;

         7. Cases where the denial start date was after the denial end date
            by one day; and

         8. Cases where the denial start date was after the download date
            of October 15, 2010.

      The BJA could not provide supporting documentation for 4 of the
72 judgmentally selected cases, and one of the selected cases was found to
be a duplicated case. Of the remaining 67 judgmentally selected cases, we
compared the data entered into the Clearinghouse database to the source
documentation to determine whether the data associated to each case was
completely and accurately entered into the Clearinghouse database.

      The data fields of the Clearinghouse database that we reviewed were
last name, first name, middle name, social security number, address, denial
start date, denial end date, and the EPLS Cause and Treatment Code. The
following table shows the exceptions found and the rates for each of the


                                   - 53 -
12 fields of the 71 cases, including the cases without supporting
documentation.

EXCEPTIONS AND EXCEPTION RATES OF THE FIELDS TESTED IN THE
                   JUDGMENTAL SAMPLE
                                     NUMBER OF
            TESTED VARIABLE          EXCEPTIONS             EXCEPTION RATE
                LNAME                     6                     8.45%
                FNAME                     6                     8.45%
                MNAME                     7                     9.86%
                  SSN                     6                     8.45%
               ADDRESS                   11                    15.49%
               COUNTRY                    6                     8.45%
                 CITY                     9                    12.68%
                  ST                      7                     9.86%
                  ZIP                     7                     9.86%
              DEN START                  20                    28.17%
               DEN END                   29                    40.85%
              EPLS CODE                  22                    30.99%
          Source: OIG Office of Advanced Audit Techniques

      As presented in the test results’ exhibits above, the exception rates
found in the 72 information based judgmentally selected cases are much
higher than the exception rates found in the randomly selected statistical
sample for each of the same 12 variables tested. In the sample of 72, each
record has one or more data anomalies. As such, the error rates in the
judgmental sample are higher than the error rates in the statistical sample
presented in Exhibit 3 of this report.

      The universe for the stratified sample consisted of the remaining
5,618 cases. In order to provide an effective coverage of the universe and
to obtain accurate estimates of the tests’ results, stratified sample design
was employed. The stratified sample design incorporated a confidence level
of 95 percent, and exception rate of 15 percent with 5 percent precision
including Bonferroni correction. As described below, there were six strata
and the sample allocations to these strata are given in the following table:




                                      - 54 -
                            STRATIFIED SAMPLE DESIGN

 STRATUM             DESCRIPTION                  STRATUM SIZE   SAMPLE SIZE
    1           Active FY 05 and FY 06                 385            16
    2           Active FY 07 and FY 08               1,526            63
    3           Active FY 09 and FY 10               2,211            91
    4          Inactive FY 05 and FY 06                873            36
    5          Inactive FY 07 and FY 08                404            17
    6          Inactive FY 09 and FY 10                219             9
  Total                                              5,618          232
Source: OIG Office of Advanced Audit Techniques

     The test results were projected to the universe of 5,618 cases at a
95 percent confidence level.

Timeliness of Entry of Data into the EPLS

       Three different comparisons were performed in our analysis of the
timeliness of entry: (1) time from receipt of case file by the BJA to upload
into the Clearinghouse database, (2) time from entry into the Clearinghouse
database to upload in the EPLS, and (3) time from start of exclusion to entry
into the EPLS.

Time From Receipt to Upload in Clearinghouse Database

       Each source document file is manually stamped by the BJA when it is
received. We recorded the manual date stamp placed on each case file from
the records reviewed in our sample as previously described. The
Clearinghouse database automatically generates a date stamp when a record
is created. This date is contained in the data field “Entry Date.” We
compared the date recorded from each source document to the date
automatically assigned by the Clearinghouse database system using
commercially available database software.

Time From Entry in Clearinghouse Database to Upload in the EPLS

      The EPLS reports the date of creation for each record in the field “EPLS
Create Date.” The field “EPLS Create Date” is automatically date stamped
by the system. The Clearinghouse database automatically generates a date
stamp when a record is created. This date is contained in the data field
“Entry Date.”

     The Clearinghouse database and the EPLS were compared against
each other using commercially available relational database software to


                                        - 55 -
identify the length of time from entry into Clearinghouse database until
upload to the EPLS by comparing the dates reported in the EPLS in the field
“EPLS Create Date” and the dates reported in the Clearinghouse database in
the field “Entry Date.” Our review consisted of all cases with a record in the
EPLS that matched a record in the Clearinghouse database. Due to the lack
of a unique identifier common to both databases, the match was made
based on first, middle, last name; social security number; EPLS Cause and
Treatment Code; and exclusion start and end dates.

Time From Start of Exclusion to Upload in the EPLS

      The EPLS reports the start of an exclusion in the field “Action Date,”
and the date of creation for each record in the field “EPLS Create Date.”
“Action Date” is a user entered field, while “EPLS Create Date” is
automatically date stamped by the system.

      We compared the “Action Date” to the “EPLS Start Date” in the EPLS
to identify the length of time from the start of an exclusion until it was
entered into the EPLS using commercially available relational database
software.

      Additionally, our analysis excluded drug cases, designated by the
Cause and Treatment Codes AA and BB, with an entry date of April 7, 2005.
BJA officials informed us that due to changes in GSA’s data requirements for
the EPLS, it was determined that it would be more efficient to remove all
Clearinghouse cases from the EPLS and re-submit an all inclusive data
upload of the Clearinghouse database. This inclusive data upload was
performed on April 7, 2005, thus changing the entry date from the original
to April 7, 2005.




                                    - 56 -
                                                                                           APPENDIX II
              OFFICE OF JUSTICE PROGRAMS
             RESPONSE TO THE DRAFT REPORT
                                                    U.S. Department of Jusfice

                                                    Office of Justice Programs




MEMORANDUM TO;                 M ichael E. Horo~vitz
                               Inspector General
                               Uni ted States Dellarunen t of Jus tice

THROUGH :                      Raymolld J . Beaude t
                               Assistant Inspector General for Audit
                               Office of tbe Inspector General
                               Unitcd S tates Dcpartment of Justice

F ROM ;                        Mary Lo u Leary      ~ \.... '-
                               Acting Assistant Attomey General

SUDJECT;                       Response to the Office of the In.spe ctor General's Draft Audit
                               Repon, Audit ofSlarutOlY Suspension and Debarmem
                               lIe/il'ities Wilhin Ihe Dl.'partmen/ q{ J us/icc

This mcmorandum provides a response tl.) the omcc of the Inspector General's (OIG 's)
May 16,2012 draft aud it report, e n t itled Alldil QfStatulury Suspension and Debarment
A':livi/ic.f Wi,hi" the Department ofJustice. The O ffice of Justice Program s (OJ 1') appreciates
the 0 pp0I1lmity to review and COllUllent On the draft repmt.

OlP was assigned responsibility For d lc Denial o f Federal Benefi ts (DFB) program on J anuary
R. 1990, via menmrandum from the Deputy AUomcy General at that time . According to the
memo randum, "Scctio n 5301 of the Anti_Drug A husc Act of 1988, P ub. L. 100-690, 102 Stat.
4310 (Act), p rov ides for denial ol'certain Fede ral benefits to persons convicted of Federa l and
State o lTe lll)es relating to drug trafficking and pol)session. Pursuant to this stat utt':, the
President submitted a Report to the C ongress o n Augus t )0, 1989 ( H ouse Document 10 1-90),
setting forth a plan lo r the implementation orSectioo 5301. Specifical ly, the P resident
di rected the Department o f Justice to a ssume the role of ' infonnation clearinghouse' for the
Pederal and State courts and to coordinate the participation o f State court:> in th is p rogram:·

T hc president's proposal, submiued 10 Congress as required by the Act, names the U.S.
Sentencin g Commission as a lead organization in communicating the provisio ns of Section
5301 to the federal courts and encouraging full panicipaTion. The Presid ent's proposal names
the Office of National Drug Control Po licy (ONDep) as the executive branch componcl'l witb
the authority to rev iew implcmentaHol1 ofth15 Section and determine if additional ehango::s or
mouifications a rc nceded in the fut ure.




                                           - 57 -
On February 22, 1993, via memorandum from Stuart Gerson, the Acting Attorney General to
                                                                       of
S. S. Ashton, tbe Acting Assistant Attorney General tor the Office Justice Programs. OJP
wus assigned responsibility for serving a.~ the "' point of <:on1.1ct' from which defense
contmctors may learn whether an individual has been disqualified from defense contract
participation, as provided in 10 U.S.C. § 2408 , Speci fically . the point of contact will collect
and maintain in a secure databasc a current list orall individuals so disqualified ." 'nlis
responsibility was reportedly derived from Sections 815 and 819 orthe Defens e Authorization
Act.

As 01P '~ statutory mission remains focused on providing the state, local, ami tribal justice
communi ty willI funding and other resources to improve their justice sysfems, we are
concerned that tJlese suspension and debannent responsibilities were assigned to OJP. which
has no administrative o\'ersight or other relevant infonnntiOIl collect;on role, w;th {cdcrul courts
or other federal entities. and is not involved with Slate courts ill such a way {hat faci litates this
type of information collection, III the broader context of O JP, the DFB and Defense
Procurement Fraud Debarment (DPFD) programs do uOt appear 10 be well placed and require
OlP to create und prov ide resources for all information collection infrastructure that like ly
duplicates what other entities have already csiahlished and Ilre bener suited to maintain. OJ P is
nol awure of any specific approprialion 01' staiT ever bcillg received for eh hel' of the programs
examined by this review. OJP believes that, ultimately, these programs may be better and
morc e fficient ly implemented by other Qllices or agencies that have mo re direct administrative
or information collection relationships wit!'. the entities handling tht:sc types of cases, and have
established infolmation colJcction roles, resources, and inlercsls. tn fue l, other existing
suspension <md debarment systems may now be cupable of serving llS the repository of this
information, suggesting that a consolidated clearinghouse may bt: more possible tOday than
when these systems were authorized 3 tH] assigned to OJP.

However, OJP agrees with the audit recommendations as they relate to OJP's assigoed
responsibilities for managing the orB and DPPD Clearinghouses programs . As staled in the
draft a ud it report, the OFB and OPFO CJc,lringhollses (collectively known as the
Clearinghouse) are Iwo legally distinct c-Iearinghouses, sharing a si ngle poim of eOtJIact thal
uscs the same staff, and follows a single se! of policies and proceduJ'es LO receive and report
qualifying cases under both programs.

Will.le OJP believes that these programs may be more clTectively and efficiently implemented
by other components or agencies, OJP is committed to carefully considering each 0 10
recommendation, and taking apprapriatt: steps to ensure optimal uti lization of OJ P's limited
available l'eSOUl'ces tor administering the records of the Clearinghouse progrums.




                                                  2




                                              - 58 -
T he dral1 <lud;t report conwins 2 1 recommendations and no questioned cOS ts , o f which
Recommendation Numbers 4-7, 10-17. and 19 ~21 pertain to OJ 1'. For ease of review, these
recommendations are restated in bold :'Iud arc fo llowed by OJP' s res ponsc.

4.     W e recommend that BJA inc,.ca,~c outreach to provide information on the Df'B
       Prug ram to s tate and fed er a l Cllurts through such m e:m !! a s the Administrative
       Office of the United St ates C ourts, stat e j udic ial a ssocil'ltiolls, N:tI.io naIDistrict
       AHorneys Association, etc.

       T he Office of Justice Programs agrees with the recommendatio)l , llJA is iu the process
       ofpre pariug a communication and o utreach _plan . and antic ipates completing the Plan ' s
       actions by September 30, 20 12. This infonnation dissemination will be administered
       through or in coordination w ith components and entilies that have established
       inronnation colkction n:.lationships with rederal and stale courts as wcll as associations
       in support o flh ese entities. S uch components and entities include the Administrative
       Office orthe United States Courts, United $tatc.'> Attorneys' Offices and the Bxecutlve
       Office ror United States Anorneys, slatejudiciai associations, the Nalionnl Center fo r
       State Courts, the National Di~1rict I\UOrJlcys Association. and others. The purpose of
       Lbc plan is 10 provide information on the OrB program where the CO urt has imposed
       statutory debarment as a resull of drug traffickin g and possession convictions pursuant
       102 1 U.S.c. § 862 . ·111C Officc of Justice Pro6'TamS considcrs this rccommendation
       resolved and requests written acceptance orlhis aeli.on from your office.

5.     \\le rccoolluend that B.IA increa se lIut reaeh to I)O.lliti&;atin&; d.ivisiuns so thai
       they ure ltWlIrc of UtC Clca ringhouse a nd the r cqu irements under 10 U.S.C. § 2408
       using m eans sufficient to reach :.til criminal atto rneys within the DO.J litigatin g
       divisions, indudill&; using t he NltHonal Advocacy Center and online training.

       T he Office of Justice Programs agrees with the recommendation . By September 30,
       20 12, BJA, in coordinatio n w ith the Department. anticipates completing such
       in lonnation di S~m i nalion to the Department of Justice's (DOl) litigating divisio ns to
       increase awareness or the C learinghouse and the requirements unde!" 10 U .S.C. § 2408.
       The O ffice of Justice Program s considers this reco mmendation re.sulvcd WId req uests
       written acceptance of this action from your office.

6.     We recommend Hun RJA d e velop a nd impleme nt polic ies and procedures 10
       en s ure the list of contact'! u sed for outreach is complete, accurate, :md r egularly
       updated , and includes aU DO J litigating di visions.

       TIle Office of Justice Programs agrees with the recommendation. By SL.-plcmbcr 30,
       2 012, BJA allticipates developing and implementing procedures to ensure the Ust of
       contacts \.lSCd for outreach is complete, llcourate , regularly updated, und includes all
       DO} litigating divisions. TIle Office of Justice Programs considers this
       recommendation resolved and requests written acceptance of this action from your
       office.



                                                   3




                                             - 59 -
7.     \Ve recommend th.at RIA updat e its policy 10 only accept qualifying UOI) cases
       from tbe USAOs to include Accepting qualifying DOD cases from all litigating
       divisions of DOJ .

       TIle O ffi ce lJf Justice Programs agrees with the recommendation. By September 3D,
       2012, mA anticipates updating its policies and procedures to ensure that quali fyi ng
       Department o f Oefensc (DOD) cases arc accepted fTom any litigating di vision or001.
       The Ollie\! of Justice Programs considers this recommendDlion reso lved and req uests
       writte n acceptance of this action from your office.

Ill.   We recommend that 8JA ensure lIull it is adequately monitoring C learingbouse
       staff to cns ul'c all submitted casl.'S are cnlcl"ed into both the Clearinghouse
       database and the, E I'LS.

       The ORiccor Justice Programs agrees with the recommendation. By Septembe r 30,
       20 12, llJA anticipates developing and tm pl ernenting procedurcs to ensure adequatc
       monitoring nf CkaringhllUsc activities, including verifyi.ng that al l submitted cases are
       entered into both the Clearinghouse database nod the Excluded Panics List System
       CErLS). The Office of Justice Prog rwns considers thi:; recommendation resolved and
       request:; written acceptance of Ibis action from your office.

It.    We recommend that U.JA e nhan ce its policies and procedures to ensure thai all
       tlUalifying cases s ubmitted are en te red into both the C leari.nghollse database and
       the EPLS.

       The Office o f Justice Programs ab'l"ees w ith the rccommendation. By September 30,
       20 l 2, BJ A anticipates developing and implemellting policies and proced ures to ensure
       that all qualifying cases are entered into both tllC C learinghouse database and the EP LS.
       TlJ.e Onice of Justice PfOb'TamS considers this rccommcndalion resolved and requests
       w ritten acce piance o f this action from your oftice.

12.    \Ve recommend !.hat UJA immedia tely enter any qualifying cases identified in this
       audit to botb the C1earingbouse data hase and the EPLS, and identify li nd enter
       any additi.(lll.al cases thaI may hliVC heen ~ uhll\iUed but not entered.

       The O ffi ce of Ju:;tice Programs agrees with the recommendation. Oy June 30, 20 12,
       I3JA plans to enter any qualifying cases identi fied in thi s audit into both the
       C learinghollse database and the EPLS. and identify and enter any other complete and
       qualified cases, which may have been submitted but not yet entered, into the
       Clearinghouse database and the EPLS. A ddilionl:llly, by July 31 ,201 2. OJA plans to
       cond uct outreach 011 cases that are incomplete to obtain missing infonnation needed to
       enter the cases into the C learingllOuse database and the EPLS. The Ofllce of' Justice
       Programs considers this recommendation resolved Hnd re<luests w ritten acceptance of
       this action fro m your office.




                                                4




                                          - 60 -
J3.   We recommend that B.IA immediate ly ente r missing I"ccords into the
      C learinghouse (lata base and the EI'lS. and corred allY errO l'S in data a lread y
      stored in the EPLS.

      The Officc of Justice Programs agrees with the recommendation. BJA plans 10 work
      WitJl the submitting agencies to e nsure record completeness and obtain any missi ng
      information. i3y September 30, 2012, BJA anticipates that all qualifyi ng cases ,,~1I be
      entered into the Clearinghouse database and the EP LS, and correction of any errors in
      data already slored in the EPLS. The Office of Justice Programs considers this
      recommendation resolved and requests w ritten accepta nce of this action   from   yO Uf
      office.

14.   We recommend that BJA immediately re move non-qua lifying records from t he
      E PL.I).

      The Office of Justice Programs agrees wi:th the recommendation . BJA has worked with
      the C learinghouse contractor, and as of October 2 7, 20 11 , al l non~qualifying records
      have been de leted in the EPLS. Iloweve.r, there is no process to completely expunge a
      record from the EPLS; deleted records will still show up in the EPLS archives, but arc
      clearly marked " Deleted." The OOice of Justice Programs considers this
      recommendation closed and requcsL" written acceptance of this action from your office.

15.   We recumme nd that. HJA c nha.nee policies 1I.lId procedures to e ns ure tlU'll a ll
      records ill the Clearinghouse and the E PLS are compJete, acc ura te, li nd properly
      communicated to other age ncies.

      The Office of Justice Programs agrees with the recommendation, By September 30,
      20 12, BJA antici pates developing and implementing polic ies and procedures to ensure
      that all records in the Clearinghouse and the EPLS arc complcte, accurate, and properly
      communic.'1ted to other agencies. The Office of Justice Programs considers this
      recommendation resolved and rcquest~ written acceptance orthis actioll from your
      office.

16.   We recommend thul BJA improve quality coniTols oC Ihe C learinghouse datubase
      to rl'duce Cuture data cntry inacturacics.

      ·rlte Officc of Justicc Programs agrees with the recommendation . l3y September 30.
      20 12, J3JA anticipates developmg and implementing policies and procedures to
      strengthen controls over the Clearinghouse database ICl reduce future data. entry
      inaccuracies. The Office of Justice P rograms considers this rccommendation resolved
      and requests writtcn accepta.nce of this action from your office.




                                               5




                                         - 61 -
17.   We recommend t ha i B.IA ensure it is adequately monitoring Clea ringhouse
      contractor~ and staff, including more frequenl dlltll checks and evaluations of
      contractOl' performance.

      The Office of Justice Programs agrees with the recommendation. By September 30,
      2012. BJA anticipates developing and implementing procedures to ensure adequilte
      monitoring ofClcaringhouse activities, includi ng more frequent datu checks and
      regular evaluations of conlmctor performance. The Office of Justice Progmms
      considers this recommendation resolved and rcqueslS wri lte n acceptance of this action
      from YOUT office.

19.   We recommend that BJA update cu rrent poli c), to ('efl eet modern capabilities of
      the EPLS system.

      'lh: Office of Justice Programs agrees with the recommendatioll. By September 30,
      20 12, DJA anticipates updating il<; policies and procedu res to ensure its current process
      ren ects the modem capabilities of the EPLS . Additional ly, once thc System for Award
      Management (a new General Services Administration system, which is consolidming
      e ight of the Federal Procurement Systems, including the EPLS) is implemented, BJA
      wiJI furth er update i Lq policies Dnd procedures. as needed. lbe Office of Just ice
      Programs considers this recommendation resolved and requests written acceptance o f
       tbis action fTo m your olli ce.

20.   We recommend th at BJA enhance policies and proeedut"C~ to ensure that all
      r ecord s are communicated hI the Department of E ducation, the Federal
      CO lllrUuniea tions Commission, and the EPLS in a timely manner .

      The Office of Justice Programs agrees with the recOmmendation. By Septembel' 30,
      2012, BJA anticipatcs developing ami implementing policies wld procedures 10 ensure
      that all records are communicated to the Department of Education. the Federal
      Communications C(ltnmlssiQu, wld the EPLS in a ti mely manner. C urrently files arc
      transferred cvery 30 days. BJA will explore Ute costs and practicality of transmitting
      cases more freque ntly. The Office of Justice Programs considers this recommendation
      resolved and request.:> written acceptance orillis ac tion [rom your office.




                                               6




                                          - 62 -
21 .   W e recommend fhat I3JA cn.tiu re it is a dequa tel y monitoring C lcllringb oujic
       COntraclOI'S and stutTto include mOl'c frequent evaluations uf the timeliness uf
       entry of individuals' iufo rmRtion into II,,! Clc arin~hou sc database a mi th e EPl...S.

       The Office of Justice Programs agrees with the recommendation. By Septemher 30.
       2012, l3JA anticip..'I.tcs ucvc\oping <lnd implementing procedures to ensure adequate
       monitoring of Clearinghouse contractors and staff, including conducting more frequent
       evaluations of the timeliness of cnlry of individuals' information into the
       Clearinghouse database and the EPLS. I3JA anticipates setting a goal for entry of ease
       inrormation into the systl!m wjlbj n five business days ofrcceipl of the complete case
       infotnlalion. The Office of Justice Programs considers this recommendation resolved
       and requests written acceptance of this action from your office.


Thank yo u for your continued support and assistance. If you have any questions regarding this
tcsponse, ple.'\se COIlL.,\ct Maureen A. HCiUlebetg, Director, Oftice of Audjt, Asse.<;smcnl, fllld
Management, on (202) 616-]282.

ee:    James H. Burch, n
       Deputy Assistant AUomcy General
         lor Operntions and MafUlgemcnt

       Denise O ' DOiUlc li
       Director
       Bureau of Justice Assistance

       Leigh Benda
       ChicfFinancia l Officer

       Maureen A. Henneberg
       Director
       O lliec of Audit" Assessment,   WId   Management

        Phillip K. Merkle
        D irector
        Office of Administration

        Jetfery A. Haley
        Deputy Director, Audit lind Review Division
        Orlice of Audit, Assessment, and Management

        Louise M. Duhamel... Ph.D.
        Acting Assistant D irector, Audit Liaison Group
        Justice Management Divif'iion




                                                 7




                                             - 63 -
cc:   Annu Martine~
      Senior Advisor to the Associate Attorney General
      Office oel hc Associate AUomey Gt:ncral

      OJ P Executive Scc.retariat
      ConJfol Number2Ql20671




                                       - 64 -
                                                                                                              APPENDIX III

EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS
       RESPONSE TO THE DRAFT REPORT


l;:~
,~                                                            U.S. Department of Justh:e
                                                              Exeeutive Office for United St"tes Anorneys


Office oflhc Di ....."";tor                                   Room 2261. RFK .\1";,, J ....,;u 8,,,/dinJi   on]) ],J1_/ ooo
                                                              9,JO Pe"",yl.,., ~", A ...,..,... Nil'
                                                              II'0,/r;"8'''''' DC l(J,JJQ



M_I!:MORANDUM

DATE:                 June 6, 20 12

TO:                   Raymond J. Beaudet
                      Assistant Inspector Gencral for Audit
                      Office of the Inspector General
                      U.S. Qlfpart ment of Justice


FROM:
                   /«-hv>m·:\ .//

                   --iionnun Wong      /.J.
                     Dcpu~ Direc tor and Counsel to the Director
                     Executive Office for United States Attorneys

SU BJEC T :           Response to the Report e11litled, "Statutory Suspension and
                      JJcbarment Ac ti vi ties Wjthin the Department of Just icc"

         The Ex (~cUl ive Office for United States Allorneys appreciates the audit undertaken by the
Department of Justicc, Office of the Inspector Generdl (OIG) regard ing the Department's
statutory debarment activities. In the report, e ntitl ed "Stututory Suspension and Debarment
Activities With in the Department of Justice," 0 10 exam ined, amo ng o the r things, the proccss by
which the Department provides informlltion on individuals "convic ted of fraud or an y other
fe lony arising o ut ofa contract with thc Departmcnt of Defcnse," as o ut lined in 10 U.S.C. §
2408(a)( I ), to the Defense Procure me nt Fraud Debamlent Clearinghouse, which is administered
by tbe Bureau c,f Justice Assistance ( BJA). The Clearinghouse then places that information into
the Excluded Purties Listing System, which serves to communicate s uspension a nd debamlcn t
activi ties of all types to a ll governme nt agencies.

         In addi ti_on to examining the process used by the litigating sections in the Cri minal
Division and Ih·e Ant itrus t Di vision to report thi s conviction infOnl13tioll, O IG evaluated tnC
process by whkh thc United S tates Attorneys ' offices (USAOs) reportlhis info rmation. The
OIG team mad~, s ite visi ts to five USAOs and reviewed case files to identify which cases
qualifie d for dc-bannen!. Thc tcam thcn c hecked with the Clearinghouse \0 see if the qualifying
cases had been reported. The team IQund that three Qf the fi ve USAOs visi ted did not have any
cases that qualified for debmment. Of the two USAOs tha t had qualifying cases, not a ll such
cases had been reported to the Clearinghouse, nor did the reports alwuys contain full nnd
complete information. Importantly, the audit noted that the Clearinghouse did nOltimcly notify
or remind USAOs of their obligation to report this information .




                                                   - 65 -
         In the report DIG makes six recommendations for the Uni ted States Attorneys' ofu ces
(USAOs), and an ndditional 15 recommendations for the Bureau of Justice Affairs. The
recommendations for the USAOs are as follow (maintaining the numbering util ized in the
report):

I.     Develop and implement policies and procedures to accurately identify and track
       qualifying DOD cnses.

2.     Develop and implement a system to ensure qualifying DOD cases are submitted timely to
       the BJA.

3.     Submit all qual ifying cases that should be actively excluded.

8.     Dcvelop policics to ensure case infonnalion submitted to the BlA contains all required
       information for entry inlo the Clearinghouse database nnd the EPLS.

9.     Promptly respond to inquiries from Clearinghouse Slaffrclatcd to submitled cases.

18.    Develop and implement a system to ensure qualifying DOD cases arc submitted timely to
       tile BJA with all required infonnation for entry into the Clearinghouse database and the
       EPLS.

        We agree with these recommendations. EOUSA will, after a period of consultation and
review, issue a memorandum to all United Stales Attorneys out lining these recommendations
find providing suggestions on steps that USAOs may lake to meet them.




                                             - 66 -
                                                                                         APPENDIX IV
                   CRIMINAL DIVISION
              RESPONSE TO THE DRAFT REPORT

                                                     U.S. Dcp:lI·tmcnt or .Iu~tice

                                                     C riminal Division


                                                     W"w/llg"',", D .C. JOJJ~




                                                     June 5, 20 12



MEMORANDUM

TO :                   Raymond J , Beaudet
                       Assistant InspcelOl' Gcneral for Audit
                       Office ofthe Inspector General

FROM :                 Mylhili Raman ",{2-
                       Pl'incipal 'Deputy Assistant Attomey General amI Chief of Staff
                       Criminal Division

SUBJECT:               The Criminal Division's Response 10 Recommendations Contained in the
                       Ofiicc of the Inspector General's Orufi Audit Repol't-Audit of Statutory
                       Suspension and Debarment Activities Within the Department of Justice

         TIlis memorandum responds to the Offiee of the Inspector General 's Drafi Audit Report
enti tled "Audit ofStalutory Suspension and Debarmcnt Activities W ithin the Department o f
Justice" (Dnlfi Repo rt). The Criminal Division takes seriously its responsibility to assist the
Bureau of Justice Assistallce (BJA) with its obligation 10 administer exclusions under 10 U.S.C,
§ 2408, As the Drafl Report notes, the BJA was directed to acce pt cases quulifying for
dcbnnncnt unde r § 2408 only from Uni ted Stntes Attol1leys' Of(ices (USA Os), ~'ee Draft Report
at v, n.lO, and thus the BJA only requested qualifying cases from the USAOs even after it
became aware that other Department oompollents litigate quulifying cases independently of any
USAO, irI. at 12, Because the BJA's limited OUlreach was causing it not to be informed of all
qualifying cases, the Criminal Division affirmatively notified the BJA in 2007 that the
Department's l'epolting of debarments under § 2408 may 110t be complete, and Criminal
Division attorneys met with the BJA in 2009 to express our concerns that the OJA was not
accepting qualifying cases fwm all Depmtment litigating divisions. lei. It was as a result oFthis
meeting tllal, in April 2009, the BJA began request ing qualifying cases from the Criminal
Division's Fruud Section, though it did not make the sume request of the Criminal Division's
Public Integrity Section. Id,

         Nonetheless, we agrce that the Criminal Division ean do more to identify and report
qua lifying cases to the BJA. We address the resoluti on of ea..:h of the Draft RepOlt's proposed
reco m mcndations applicable to the Criminul Di vision below.




                                            - 67 -
                                 Responses to l:t ccomm cndntions

ReC0I1111I1! lIlltlfiOll I . Develop and implement policies anti procedures fa accurafely idenfiJY
and {rack qualifYing Department a/Defellse cases.

R ecommelHitllioll 1. Develop and implement" system 10 em'ure qllol!/ylng Deparlmenl oj'
Dejense case.f tire submi/(et/ timely to {he Bureau ofJus/ice Assistone;e.

Recomme/ltlfltiOI/ 3. SlIbmif all qualifying cases Ihal shollld be actively excluded.

Recommenl/mioll 8. Develop polides (0 ensure case in/ormation submiffed (0 (he Bureau of
Jus/ice ;4ssi,\'IlIIICe cOIl/ains all req/lired in/omwtion/ol' enfly in/a the Clearinghouse
datahase and rhe Excluded Parlies LWing Sysfem .

.Reco II/melt/lation 9. Promptly respoNd to inquiriesji-olll Clearinghouse slaffndoled /0
suhmiffed cases.

ReCQlllmemlttlioll .18. Del'elop alld imp/emelli a syStem fo ensure qualifyjng Deparfmen/ of
Dejimse cases arc .whmifted timely to Ihe Bureau of Justice As.~· i~·tance with all required
informatiunfor rmlry infO (lie ClearinghollSe darabase and (he Excluded Parties Listing System.

lle,\'jJ(}fu'e: We agree with these recommendations. By a memorandum issued on May' "
2012, the Assistant Attorney General for the Criminal Division instructed each of the Criminal
Division's sect ions that handles ii-aud or other fe lony prosecutions arisi ng out of Department of
Defense contracts 1'0 ensure that convictions giving rise to debannenl under § 2408 are timely
submitted to the BJA. Specifically, the Assistant Attorney General instructed our sections 10
( I) identify and track potentially qualifying cases; (2) collect and transmit the required
information to the BlA; and (3) submit qualifying convictions 10 the BlA in a timely fashion
aner j udgment is entered. Criminal Division sections were, further Instructed to promptly
respond to inqu iries from the BlA about submitted cases.

        The Criminal Division's Office of Administration is working with the sections that
handle cases potentially qualifying for debannent under § 2408, including our Fraud and Public
Integrity Sections, to determine how best 10 Iraek qual ifying cases in the Divisioo' s Automated
Case Tracking System (ACTS). For example, we anticipate adding It "quEllifying defense­
related fdony" progl'aLn category code for caseS that could qualify for debarment ullder § 2408,
and a "8JA noti fied" event code indicating Ihal a qua li fying case has been submitted to the
BJA. For those cases potentially qualifying for debal111ent, the specific infOl'lnalion required by
the BJA-such as the defendant's social security number and date ofbil1h- will also be entered
into ACTS.

         OUl' Office of Administration also intends to fun regular reports listing cases that have
been identified as potentially qualifying for debarment under § 2408; those rep0l1s will be
provided to the Division 's litigating sections, who will review them to determine whether any
of the listed cases need to be submi tted to the 8lA. Tberefore, the Division's litigating sections
will strive to submit qualify ing cases to the 8JA I.IS they arc identified, rather than wailing for
the BlA's quarterly requeSt. When we receive the BJA's quarterly request, the Office of
Administration will both check ACTS and reach out to Ihe attorneys in OUT sections tbat handle


                                                  2




                                             - 68 -
potentially qualifying cases to ensure that we have submitted all qualifying cases to the 8 JA.
We huyc informed the I)JA tha t it should scad its quarterly T"Cquest to:

Debra ..wry
Crim inal Division . Office of Administrati on
Room 5124
1400 New York Avenue N.W.
Washington, D.C, 20530
(t) (202) 305-4967
(0 (202) 5 14-1792
dchra,frary@ usdoj .goy

        Lf you have lilly questions, please contact Senior Co\lIlscl to the Assistant Attomey
General D~lllie l Lcncrz at (202) 532-6045 or Denise Turcotte, the Di vision' s Audit Liaison, at
(202) 6 16-93 I g.




                                                  3




                                             - 69 -
                                                                                        APPENDIX V
                ANTITRUST DIVISION
           RESPONSE TO THE DRAFT REPORT



                                                U.S. Departmen t of Justice

                                                Antitrust Division

                                                                                                i
Office of the General Counsel                       Washington, D.C. 20530                      i

                                                     June 6, 2012

                                                     FEDERAL EXPRESS


David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector Oeneral
U.S. Department of Justice
1120 Lincoln Street, Suite 1500
Denver, CO 80203

Dear Mr. Sheeren:

       The Antitrust Division ("Division',) appreciates the ·opportunity to respond to the
Office of the Inspector Oeneral ("010") draft report on the Audit of Statutory Suspension
and Debarment Activities Within the Department of Justice. We ask that this letter be
appended to OIO's final report.

        As noted in the audit report, the Division became aware of the Defense
Procurement Fraud Debarment Clearinghouse reporting requirements in late 2008. At
that time, the Division instructed its attorneys to report defendants qualifying for
debarment under 10 U.S.C. § 2408 to the Clearinghouse. However, in large part Division
attorneys failed to do so because they were aware of debarment of the same individuals
by the Department of Defense and were unaware that administrative debarment by DoD
was distinct from debarment under 10 U .S.C. § 2408. The audit report notes that the
Division reported to 010 66 individuals who qualified for debarment under
10 U.S.c. § 2408. Further examination of Division records reveals that eight of the
individuals who were not reported to the Clearinghouse did not in fact qualify for
debarment under 10 U.S.c. § 2408 and thus were properly not reported to the
Clearinghouse. Further, as noted in the Division's original response to 010, 14 of the
individuals were not sentenced until after fiscal year 2010 and thus were not reportable
during the audit period, and three individuals still have not been sentenced and are not yet
reportable.

       The Division agrees with the audit report's recommendations for the Antitrust
Division, which are recommendations 1-3, 8-9, and 18. Those recommendations are to
develop and implement policies and procedures to accurately identify and track




                                         - 70 -
qualifying DoD cases, to develop and implement a system to ensure qualifying DoD
cases are submitted timely to the Clearinghouse, to submit all qualifying cases that sho uld
be actively excluded, to develop policies to ensure all required case information is
submitted to the Clearinghouse, and to promptly respond to inquiries from Clearinghou se
staff.

        In response to these recommendations, the Division has provided expanded
instructions to its attorneys on the requirements of 10 U.S.C. § 2408 and also on the fact
that administrative debarment by DoD does not substitute for reporting and debarment
under 10 U.S.c. § 2408. The Division has implemented a system to track on at least a
quarterly basis the identification of qualifying cases under 10 U.S.c. § 2408 and the
submission of qualifying cases to the Clearinghouse. The Division has also developed a
certification form for attorneys to complete and submit to the Division's Office of
Operations once a report on a qualifying defendant has been made to the Clearinghouse.
In this form, the attorney must certify that the defendant qualifies for debarment under
10 U.S.c. § 2408 and that the required information has been submitted to the
Clearinghouse. The certification form lists the information that must be submitted to t he
Clearinghouse. The Division has encouraged its attorneys to submit the cases as soon as
possible after they receive a defendant's judgment and conviction form but no later tha n
the deadline for the Clearinghouse's quarterly request for qualifying cases and has
instructed its attorneys to respond promptly to any inquiries from the Clearinghouse. The
Division has submitted to the Clearinghouse all qualifying cases from the audit period
that should be actively excluded, as well as all qualifying cases from fiscal year 2011 a nd
the first and second quarters of fiscal year 2012.

       Thank you for the opportunity to respond to OIG's draft report. Please contact
me if you need further assistance.

                                                      Sincerely,



                                                      Belinda A. Barnett
                                                      Criminal Deputy General Counsel
                                                      Antitrust Division




                                              2




                                         - 71 -
                                                                        APPENDIX VI

                    OFFICE OF THE INSPECTOR GENERAL 

                   ANALYSIS AND SUMMARY OF ACTIONS

                     NECESSARY TO CLOSE THE REPORT


Office of Justice Programs

      The OIG provided a draft of this audit report to the Office of Justice Programs
(OJP). OJP’s response is incorporated in Appendix II of this final report. The following
provides the OIG analysis of the response and summary of actions necessary to close
the report.

Recommendation Number:

   4.	 Resolved. OJP concurred with our recommendation that the BJA increase
       outreach to provide information on the DFB Program to state and federal courts.
       OJP stated in its response that the BJA is in the process of preparing a
       communication and outreach plan, and anticipates completing the plan’s actions
       by September 30, 2012.

       This recommendation can be closed when we receive a copy of the BJA’s
       communication and outreach plan, and evidence that the BJA has increased
       outreach to provide information on the DFB Program to state and federal courts.

   5.	 Resolved. OJP concurred with our recommendation that the BJA increase
       outreach to DOJ litigating divisions so that they are aware of the Clearinghouse
       and the requirements under 10 U.S.C. § 2408. OJP stated in its response that by
       September 30, 2012, the BJA, in coordination with the Department, anticipates
       completing such information dissemination to DOJ’s litigating divisions to
       increase awareness of the Clearinghouse and the requirements under 10 U.S.C.
       § 2408.

       This recommendation can be closed when we receive evidence of the BJA’s
       increased outreach communications and that DOJ litigating divisions are aware of
       the Clearinghouse and the requirements under 10 U.S.C. § 2408.

   6.	 Resolved. OJP concurred with our recommendation that the BJA develop and
       implement policies and procedures to ensure the list of contacts used for
       outreach is complete, accurate, and regularly updated, and includes all DOJ
       litigating divisions. OJP stated in its response that by September 30, 2012, the
       BJA anticipates developing and implementing such procedures.



                                          - 72 -
    This recommendation can be closed when we receive the BJA’s updated policies
    and procedures, and evidence that the list of contacts used for outreach is
    complete, accurate, and regularly updated, and includes all DOJ litigating
    divisions.

7.	 Resolved. OJP concurred with our recommendation that the BJA update its
    policy to only accept qualifying DOD cases from the USAOs to include accepting
    qualifying DOD cases from all litigating divisions of DOJ. OJP stated in its
    response that by September 30, 2012, the BJA anticipates updating these
    policies and procedures.

    This recommendation can be closed when we receive the BJA’s updated policies
    and procedures, and evidence that the BJA accepts qualifying DOD cases from all
    litigating divisions of DOJ.

10. Resolved.	 OJP concurred with our recommendation that the BJA ensure that it
    is adequately monitoring Clearinghouse staff to ensure all submitted cases are
    entered into both the Clearinghouse database and the EPLS. OJP stated in its
    response that by September 30, 2012, the BJA anticipates developing and
    implementing procedures to ensure adequate monitoring of Clearinghouse
    activities, including verifying that all submitted cases are entered into both the
    Clearinghouse database and the EPLS.

    This recommendation can be closed when we receive the BJA’s updated policies
    and procedures, and evidence indicating it is monitoring Clearinghouse activities.

11. Resolved.	 OJP concurred with our recommendation that the BJA enhance its
    policies and procedures to ensure that all qualifying cases submitted are entered
    into both the Clearinghouse database and the EPLS. OJP stated in its response
    that by September 30, 2012, the BJA anticipates developing and implementing
    policies and procedures to ensure that all qualifying cases are entered into both
    the Clearinghouse database and the EPLS.

    This recommendation can be closed when we receive the BJA’s updated policies
    and procedures, and evidence that the BJA ensures that all qualifying cases
    submitted are entered into both the Clearinghouse database and the EPLS.

12. Resolved.	 OJP concurred with our recommendation that the BJA immediately
    enter any qualifying cases identified in this audit to both the Clearinghouse
    database and the EPLS, and identify and enter any additional cases that may
    have been submitted but not entered. OJP stated in its response that by
    June 30, 2012, the BJA plans to enter any qualifying cases identified in this audit
    into both the Clearinghouse database and the EPLS, and identify and enter into


                                       - 73 -
    the Clearinghouse database and the EPLS any other complete and qualified cases
    which may have been submitted but not yet entered. Additionally, by July 31,
    2012, the BJA plans to conduct outreach on cases that are incomplete to obtain
    missing information needed to enter the cases into the Clearinghouse database
    and the EPLS.

    This recommendation can be closed when we receive a copy of the Clearinghouse
    database reflecting the addition of submitted cases. OIG auditors will obtain a
    copy of the EPLS from the GSA to verify that Clearinghouse records have also
    been uploaded to the EPLS.

13. Resolved.	 OJP concurred with our recommendation that the BJA immediately
    enter missing records into the Clearinghouse database and the EPLS, and correct
    any errors in data already stored in the EPLS. OJP stated in its response that the
    BJA plans to work with the submitting agencies to ensure record completeness
    and will obtain any missing information. By September 30, 2012, the BJA
    anticipates that all qualifying cases will be entered into the Clearinghouse
    database and the EPLS, and any errors in data already stored in the EPLS will be
    corrected.

    This recommendation can be closed when we receive a copy of the Clearinghouse
    database reflecting the corrected records. OIG auditors will obtain a copy of the
    EPLS from the GSA to verify that errors and omissions have also been corrected
    in the EPLS.

14. Resolved.	 OJP concurred with our recommendation that the BJA immediately
    remove non-qualifying records from the EPLS. OJP stated in its response that
    the BJA has worked with the Clearinghouse contractor, and as of October 27,
    2011, all non-qualifying records had been deleted in the EPLS database.
    However, there is no process to completely expunge a record from the EPLS
    database; deleted records will still show up in the EPLS archives, but are clearly
    marked “Deleted.”

    This recommendation can be closed after OIG auditors obtain a copy of the EPLS
    from the GSA to verify that non-qualifying records have been designated as
    “Deleted” within the EPLS.

15. Resolved.	 OJP concurred with our recommendation that the BJA enhance
    policies and procedures to ensure that all records in the Clearinghouse and the
    EPLS are complete, accurate, and properly communicated to other agencies. OJP
    stated in its response that by September 30, 2012, the BJA anticipates
    developing and implementing such procedures.




                                       - 74 -
    This recommendation can be closed when we receive the BJA’s updated policies
    and procedures, and evidence that the BJA ensures that all records in the
    Clearinghouse and the EPLS are complete, accurate, and properly communicated
    to other agencies.

16. Resolved.	 OJP concurred with our recommendation that the BJA improve
    quality controls of the Clearinghouse database to reduce future data entry
    inaccuracies. OJP stated in its response that by September 30, 2012, the BJA
    anticipates developing and implementing policies and procedures to strengthen
    controls over the Clearinghouse database to reduce future data entry
    inaccuracies.

    This recommendation can be closed when we receive evidence that the BJA has
    improved quality controls of the Clearinghouse databases to reduce future data
    entry inaccuracies.

17. Resolved.	 OJP concurred with our recommendation that the BJA ensure it is
    adequately monitoring Clearinghouse contractors and staff, including more
    frequent data checks and evaluations of contractor performance. OJP stated in
    its response that by September 30, 2012, the BJA anticipates developing and
    implementing procedures to ensure adequate monitoring of Clearinghouse
    activities, including more frequent data checks and regular evaluations of
    contractor performance.

    This recommendation can be closed when we receive the BJA’s updated policies
    and procedures, and evidence that the BJA has increased the frequency of data
    checks and initiated recurring contractor performance evaluations.

19. Resolved.	 OJP concurred with our recommendation that the BJA update current
    policy to reflect modern capabilities of the EPLS system. OJP stated in its
    response that by September 30, 2012, the BJA anticipates updating its policies
    and procedures to ensure its current process reflects the modern capabilities of
    the EPLS. Additionally, once the System for Award Management (a new General
    Services Administration system, which is consolidating eight of the Federal
    Procurement Systems, including the EPLS) is implemented, the BJA will further
    update its policies and procedures, as needed.

    This recommendation can be closed when we receive evidence that the BJA’s
    updated policies and procedures and current processes reflect the modern
    capabilities of the EPLS system.

20. Resolved.	 OJP concurred with our recommendation that the BJA enhance
    policies and procedures to ensure that all records are communicated to the


                                      - 75 -
       Department of Education, the Federal Communications Commission, and the
       EPLS in a timely manner. OJP stated in its response that by September 30,
       2012, the BJA anticipates developing and implementing policies and procedures
       to ensure that all records are communicated to the Department of Education, the
       Federal Communications Commission, and the EPLS in a timely manner.
       Currently files are transferred every 30 days. The BJA will explore the costs and
       practicality of transmitting cases more frequently.

       This recommendation can be closed when we receive the BJA’s updated policies
       and procedures, and evidence that the BJA is communicating all records in a
       timely manner.

   21. Resolved.	 OJP concurred with our recommendation that the BJA ensure it is
       adequately monitoring Clearinghouse contractors and staff to include more
       frequent evaluations of the timeliness of entry of individuals’ information into the
       Clearinghouse database and the EPLS. OJP stated in its response that by
       September 30, 2012, the BJA anticipates developing and implementing
       procedures to ensure adequate monitoring of Clearinghouse contractors and
       staff, including conducting more frequent evaluations of the timeliness of entry of
       individuals’ information into the Clearinghouse database and the EPLS. The BJA
       anticipates setting a goal for entry of case information into the system within 5
       business days of receipt of the complete case information.

       This recommendation can be closed when we receive evidence that the BJA is
       adequately monitoring Clearinghouse contractors and staff and conducting more
       frequent evaluations of the timeliness of entry of information into the
       Clearinghouse database and the EPLS.

Executive Office for U.S. Attorneys

       The OIG provided a draft of this audit report to the Executive Office for United
States Attorneys (EOUSA). EOUSA’s response is incorporated in Appendix III of this
final report. The following provides the OIG analysis of the response and summary of
actions necessary to close the report.

      We made six recommendations to EOUSA in this report. EOUSA concurred with
the recommendations and, in its response to each recommendation, stated that it will,
after a period of consultation and review, issue a memorandum to all United States
Attorneys outlining these recommendations and providing suggestions on steps that
USAOs may take to meet them.




                                          - 76 -
Recommendation Number:

  1.	 Resolved. EOUSA concurred with our recommendation to develop and
      implement policies and procedures to accurately identify and track qualifying
      DOD cases.

      This recommendation can be closed when we receive EOUSA’s updated policies
      and procedures, and evidence that the USAOs accurately identify and track
      qualifying DOD cases.

  2.	 Resolved. EOUSA concurred with our recommendation to develop and
      implement a system to ensure qualifying DOD cases are submitted timely to the
      BJA.

      This recommendation can be closed when we receive evidence that the USAOs
      timely submit qualifying DOD cases to the BJA.

  3.	 Resolved. EOUSA concurred with our recommendation to submit all qualifying
      cases that should be actively excluded.

      This recommendation can be closed when we receive evidence that the USAOs
      submit to the Clearinghouse all qualifying cases that should be actively excluded.

  8.	 Resolved. EOUSA concurred with our recommendation to develop policies to
      ensure case information submitted to the BJA contains all required information
      for entry into the Clearinghouse database and the EPLS.

      This recommendation can be closed when we receive EOUSA’s updated policies
      and procedures, and evidence that the case information the USAOs submit to the
      BJA contains all required information for entry into the Clearinghouse database
      and the EPLS.

  9.	 Resolved. EOUSA concurred with our recommendation to promptly respond to
      inquiries from Clearinghouse staff related to submitted cases.

      This recommendation can be closed when we receive evidence that the USAOs
      promptly respond to inquiries from Clearinghouse staff related to submitted
      cases.

  18. Resolved.	 EOUSA concurred with our recommendation to develop and
      implement a system to ensure qualifying DOD cases are submitted timely to the
      BJA with all required information for entry into the Clearinghouse database and
      the EPLS.



                                        - 77 -
       This recommendation can be closed when we receive evidence that the USAOs
       ensure qualifying DOD cases are submitted timely to the BJA with all required
       information for entry into the Clearinghouse database and the EPLS.

Criminal Division

      The OIG provided a draft of this audit report to the Criminal Division (CRM).
CRM’s response is incorporated in Appendix IV of this final report. The following
provides the OIG analysis of the response and summary of actions necessary to close
the report.

      We made six recommendations to CRM in this report. CRM concurred with the
recommendations and, in its response to each recommendation, stated that the
Assistant Attorney General for Criminal Division has issued a memorandum instructing
CRM’s sections to (1) identify and track potentially qualifying cases; (2) collect and
transmit the required information to the BJA; and (3) submit qualifying convictions to
the BJA in a timely fashion after judgment is entered. CRM’s sections were further
instructed to respond promptly to inquiries from the BJA about submitted cases.

       Additionally, CRM stated that its Office of Administration is working with the
sections that handle cases potentially qualifying for debarment under 10 U.S.C. § 2408,
including the Fraud and Public Integrity Sections, to determine how best to track
qualifying cases in CRM's Automated Case Tracking System (ACTS). CRM also stated
that its litigating sections will strive to submit qualifying cases to the BJA as they are
identified, rather than waiting for the BJA's quarterly request. When the BJA's quarterly
request is received, CRM stated that the Office of Administration will both check ACTS
and contact the attorneys within the sections that handle potentially qualifying cases to
ensure that all qualifying cases are submitted to the BJA.

Recommendation Number:

   1.	 Resolved. CRM concurred with our recommendation to develop and implement
       policies and procedures to accurately identify and track qualifying DOD cases.

       This recommendation can be closed when we receive a copy of CRM’s final
       policies and procedures, and evidence that it is accurately identifying and
       tracking qualifying DOD cases.

   2.	 Resolved. CRM concurred with our recommendation to develop and implement
       a system to ensure qualifying DOD cases are submitted timely to the BJA.




                                          - 78 -
       This recommendation can be closed when we receive a copy of CRM’s final
       policies and procedures, and evidence that is it timely submitting qualifying DOD
       cases to the BJA.

  3.	 Resolved. CRM concurred with our recommendation to submit all qualifying
      cases that should be actively excluded.

       This recommendation can be closed when we receive evidence that CRM is
       submitting to the Clearinghouse all qualifying cases that should be actively
       excluded.

  8.	 Resolved. CRM concurred with our recommendation to develop policies to
      ensure case information submitted to the BJA contains all required information
      for entry into the Clearinghouse database and the EPLS.

       This recommendation can be closed when we receive a copy of the Assistant
       Attorney General’s memorandum to Criminal Division’s sections, any updated
       policies and procedures, and evidence that the case information submitted to the
       BJA contains all required information for entry into the Clearinghouse database
       and the EPLS.

  9.	 Resolved. CRM concurred with our recommendation to promptly respond to
      inquiries from Clearinghouse staff related to submitted cases.

       This recommendation can be closed when we receive evidence that CRM
       promptly respond to inquiries from Clearinghouse staff related to submitted
       cases.

  18. Resolved.	 CRM concurred with our recommendation to develop and implement
      a system to ensure qualifying DOD cases are submitted timely to the BJA with all
      required information for entry into the Clearinghouse database and the EPLS.

       This recommendation can be closed when we receive evidence that CRM timely
       submits qualifying DOD cases to the BJA with all required information for entry
       into the Clearinghouse database and the EPLS.

Antitrust Division

     The OIG provided a draft of this audit report to the Antitrust Division (ATR). ATR’s
response is incorporated in Appendix V of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the report.




                                         - 79 -
       We made six recommendations to ATR in this report. ATR concurred with the
recommendations and, in its response to each recommendation, ATR stated that it has
provided expanded instructions to its attorneys on the requirements of 10 U.S.C. §2408
and also on the fact that administrative debarment by DOD does not substitute for
reporting and debarment under 10 U.S.C. § 2408. Additionally, ATR stated that it has
implemented a system to track on at least a quarterly basis the identification of
qualifying cases under 10 U.S.C. § 2408 and the submission of qualifying cases to the
Clearinghouse. ATR stated that it has also developed a certification form for attorneys
listing the information that must be submitted to the Clearinghouse to be completed and
submitted to ATR’s Office of Operations once a report on a qualifying defendant has
been made to the Clearinghouse. ATR stated that it has encouraged its attorneys to
submit the cases as soon as possible after they receive a defendant's judgment and
conviction form, but no later than the deadline for the Clearinghouse's quarterly request
for qualifying cases, and has instructed its attorneys to respond promptly to any
inquiries from the Clearinghouse. ATR also stated that it has submitted to the
Clearinghouse all qualifying cases from the audit period that should be actively excluded,
as well as all qualifying cases from fiscal year 2011 and the first and second quarters of
fiscal year 2012.

Recommendation Number:

   1.	 Resolved. ATR concurred with our recommendation to develop and implement
       policies and procedures to accurately identify and track qualifying DOD cases.

       This recommendation can be closed when we receive a copy of ATR’s updated
       policies and procedures, and evidence that it has implemented procedures to
       accurately identify and track qualifying DOD cases.

   2.	 Resolved. ATR concurred with our recommendation to develop and implement a
       system to ensure qualifying DOD cases are submitted timely to the BJA.

       This recommendation can be closed when we receive a copy of ATR’s updated
       policies and procedures, and evidence that it has implemented procedures to
       ensure the timely submission of qualifying DOD cases.

   3.	 Resolved. ATR concurred with our recommendation to submit all qualifying
       cases that should be actively excluded.




                                          - 80 -
    This recommendation can be closed when we receive evidence that ATR is
    submitting to the Clearinghouse all qualifying cases that should be actively
    excluded.

8.	 Resolved. ATR concurred with our recommendation to develop policies to
    ensure case information submitted to the BJA contains all required information
    for entry into the Clearinghouse database and the EPLS.

    This recommendation can be closed when we receive a copy of ATR’s updated
    policies and procedures, and evidence that it ensures case information submitted
    to the BJA contains all required information for entry into the Clearinghouse
    database and the EPLS.

9.	 Resolved. ATR concurred with our recommendation to promptly respond to
    inquiries from Clearinghouse staff related to submitted cases.

    This recommendation can be closed when we receive a copy of ATR’s updated
    policies and procedures, and evidence that ATR is promptly responding to
    inquiries from Clearinghouse staff related to submitted cases.

18. Resolved.	 ATR concurred with our recommendation to develop and implement a
    system to ensure qualifying DOD cases are submitted timely to the BJA with all
    required information for entry into the Clearinghouse database and the EPLS.

    This recommendation can be closed when we receive a copy of ATR’s updated
    policies and procedures, and evidence that ATR is timely submitting to the BJA
    qualifying DOD cases with all required information for entry into the
    Clearinghouse database and the EPLS.




                                      - 81 -
